<html>
<title> - SECURE ACCESS TO JUSTICE AND COURT PROTECTION ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                     SECURE ACCESS TO JUSTICE AND 
                      COURT PROTECTION ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1751

                               __________

                             APRIL 26, 2005

                               __________

                           Serial No. 109-44

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-876                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                      Jay Apperson, Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                  Michael Volkov, Deputy Chief Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 26, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable Jane R. Roth, Chair, Committee on Security and 
  Facilities, Judicial Conference of the United States
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable Cynthia Stevens Kent, District Court Judge, 114th 
  Judicial District Court, Smith County, Texas
  Oral Testimony.................................................    15
  Prepared Statement.............................................    18
The Honorable Paul J. McNulty, United States Attorney, Eastern 
  District of Virginia
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Mr. John F. Clark, United States Marshal, Eastern District of 
  Virginia, appearing for the United States Marshals Service, 
  Department of Justice
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    75
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........    76
Prepared Statement of Mary McQueen, President, National Center 
  for State Courts...............................................    76
Letter from the Judicial Conference of the United States, dated 
  April 1, 2005, submitted by the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    81
Response to post-hearing questions from the Honorable Paul J. 
  McNulty, United States Attorney, Eastern District of Virginia..    85

 
                     SECURE ACCESS TO JUSTICE AND 
                      COURT PROTECTION ACT OF 2005

                              ----------                              


                        TUESDAY, APRIL 26, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. I want to 
welcome you to this very important legislative hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security, to 
examine the problem of violence in and around our courthouses 
against judges, prosecutors, witnesses, law enforcement, and 
other court personnel, and the comprehensive bipartisan 
proposal recently introduced by my good friends and colleagues, 
Representative Gohmert and Representative Weiner, H.R. 1751, 
the ``Secure Access to Justice and Court Protection Act of 
2005.''
    Recent tragic events--the killing of family members of 
United States District Judge Joan Lefkow; and the brutal 
slayings of Judge Rowland Barton, his court reporter, his 
deputy sheriff, and a Federal officer in Atlanta; and the cold-
blooded shootings outside of the Tyler, Texas courthouse--all 
underscore the importance of security for judges, courthouse 
personnel, witnesses, and law enforcement. This is a problem 
which threatens the very integrity of our judicial system.
    Our Committee has, for many years, as you all know, focused 
on the issue of protecting witnesses and victims of crime. That 
problem continues to exist, but has now grown with recent 
brutal acts of violence, increasing number of threats, and 
attempts to derail our civil and criminal justice system.
    We must work together in a bipartisan effort to ensure that 
our judicial system operates in a safe environment. Judges, 
witnesses, courthouse personnel, and law enforcement must not 
have to face threats of violence when carrying out their 
duties.
    Our mission here is to provide the resources and the tools 
necessary to ensure that our judicial system works. Our words 
must translate into deeds and meaningful reforms and resources.
    Courthouse protection does not simply mean in and around 
the courthouse itself. Security needs to extend to the homes 
and areas that judges, prosecutors, law enforcement, and 
witnesses live. Without such protection, justice will truly be 
denied, as criminals seek to undermine our justice system; 
whether it be a disgruntled civil litigant, a dangerous 
criminal seeking to take out a judge or a prosecutor, kill a 
gang member who has agreed to testify against other gang 
members, or murder innocent civilian witnesses who have done 
nothing wrong other than carry out their civil obligation to 
testify against a violent criminal.
    At the Federal level, the United States Marshals Service 
carries a heavy obligation to protect those working in the 
Judicial Branch, as well as witnesses in Federal trials.
    The Committee has heard concerns about the United States 
Marshals' ability to carry out its duties. A recent Inspector 
General's report raised questions about the marshals' witness 
protection program. In addition, we've heard that marshals may 
not have adequate resources to fulfill its mission; that 
questions have been raised about allocation of resources 
between the field and headquarters locations; and that 
arbitrary decisions at the marshals' headquarters adversely 
affect both morale and security efforts in the field.
    The Subcommittee intends to examine these issues, and I'm 
grateful for my support--for the support of my good friend and 
colleague, Ranking Minority Member ``Bobby'' Scott, for his 
commitment to conduct oversight of the U.S. Marshals Service to 
determine what, if any, additional measures may be needed.
    At the State and local level, I'm very interested in 
hearing what Congress can do, if anything, to assist in the 
protection of their courts and their witnesses. I'm already 
aware of a dire need for assistance in the creation of witness 
protection programs at the State and local level. As we all 
know, the bulk of criminal prosecution occurs at the State and 
local level.
    I was disturbed to hear recently that 40 percent of 
homicide prosecutions in Baltimore, Maryland, are dismissed or 
derailed by witness intimidation, threats, and violence. 
Moreover, I was furthermore disturbed to learn that there are 
existing websites on the Internet which disclose the identity 
and personal information of judges, witnesses, law enforcement, 
and other criminal justice personnel. These techniques of 
witness intimidation must not continue.
    I want to take a moment to thank Representative Gohmert, 
the gentleman from Texas, and Representative Weiner, the 
gentleman from New York, who have crafted comprehensive 
legislation in H.R. 1751 to address these issues. I 
congratulate them for their bipartisan effort.
    There's more to be done, and I'm committed to making sure 
that the Subcommittee continues to examine all these issues. As 
I said, the integrity of our judicial system is at risk, and we 
must act now.
    And I want to say a word or two about mandatory minimums. 
They've been kicked around a lot recently. And I'm sure Mr. 
McNulty is going to address that today. I have----
    Mr. Scott. I'm going to maybe address it, too.
    Mr. Coble. And the Ranking Member says he may address it, 
as well.
    I have consistently voted in favor of mandatory minimums, 
but I'm revisiting that. Oh, you can't dare talk against 
mandatory minimums; you're soft on crime! Well, I'm not soft on 
crime, but I want to be sure that there are adequate safety 
nets.
    Folks, when you impose an absolute standard, inevitably, in 
my opinion, there is going to be an injustice or an inequity 
imposed at either individuals or groups, small however they may 
be. I think there's a place for mandatory minimums. But as I 
revisit it, I want to be doggone sure that there is a safety 
net; because I'm afraid that sometimes someone may fall through 
the cracks. Now, the hardline proponents of mandatory minimums: 
``Oh, no, no one falls through the cracks.'' Well, that may or 
may not be true. Paul, you might could educate me more 
thoroughly on that.
    I think, folks, it's a situation where reasonable men and 
women can differ. I think convincing arguments can be made on 
each side of this issue. And I'm sure Mr. McNulty is going to 
address it. The Minority Member implies that he's going to 
address it. But subject to interpretation, of course.
    I don't want anybody to think that I'm abandoning my past 
support on mandatory minimums, because I'm not. But I want to 
be sure about the safety net, and I'm not thoroughly convinced 
it's there. It may well be there.
    Having said all that, I guess what I--in conclusion, Mr. 
Scott, before I surrender it to you----
    Mr. Scott. Surrender? [Laughter.]
    Mr. Coble. Pardon? What did you say?
    Mr. Scott. Surrender?
    Mr. Coble. Before I surrender the mike to you. Many 
advocates see this issue, folks, as all black or all white. I 
see subtle shades of gray. And I want to visit that more 
thoroughly.
    And having said that, I want to recognize my good friend--I 
guess he's still a good friend--the Ranking Member from 
Virginia, Mr. ``Bobby'' Scott.
    Mr. Scott. If you're changing your position on mandatory 
minimums, you're going to become a much better friend.
    Mr. Coble. Well, now, would the gentleman yield? I didn't 
say I'd change my position.
    Mr. Scott. Thank you, Mr. Chairman. I'm pleased to join you 
as we convene the hearing on security in our courts and 
protecting our judges and others associated with court 
operations. Unfortunately, as you've indicated, I'm unable to 
join you in supporting the bill before us because of the 
extraneous matters that are in the bill.
    With several sensational incidents in recent years 
involving murders of judges, family members of judges, court 
personnel, witnesses, and others, we've come to see the 
consequences of insufficient security for our court operations 
and security for persons associated with them.
    All agree that enhancement of security for our courts and 
all persons associated with them--that increasing that security 
is imperative. Yet the proponents of H.R. 1751 have chosen to 
address those needs in a manner apparently calculated to 
prevent or undermine the prospects of broad bipartisan and 
general support for that effort.
    Unfortunately, H.R. 1751 is yet another effort to use an 
appropriate issue of concern to the Nation as a vehicle for 
extraneous controversial and general provisions of the law that 
are unnecessary, costly, and often counterproductive to that 
concern. Yet again, in this Congress we're considering a bill 
that purports to address a serious concern, security in the 
courts, when in essence, the bill is merely a host for more 
draconian criminal penalties aimed at ensuring that bit players 
and major players of crime face the same consequences.
    Among other provisions in H.R. 1751--among other 
provisions, H.R. 1751 contains seven new death penalties; a 
speedy habeas corpus procedure to ensure that more innocent 
people are put to death; and increasing the number by applying 
the provision to ex post facto, you've got 22 new mandatory 
minimum sentences, provisions to punish attempts and 
conspiracies the same as completing the offense.
    The habeas corpus provision is particularly troubling, 
given that 119 death row inmates have been exonerated over the 
last 12 years--that's almost one a month--after languishing on 
death row for many years. The impact of the provision seems to 
ensure that innocent people will be executed before they have 
enough time for the evidence to develop to exonerate them.
    As with the Effective Death Penalty Act of 1996, the public 
rationale undergirding of this provision is apparently that it 
is inconsistent with an effective death penalty if we let the 
courts get clogged up by all these innocent defendants.
    The public is clearly rethinking the appropriateness of the 
death penalty in general, due to the evidence that it is 
ineffective in deterring crimes, racially discriminatory, and 
it's found much more often now to be erroneously applied. A 23-
year comprehensive study of the death penalty found that 68 
percent of the death penalties applied were erroneous. That is 
not surprising that 119 people sentenced to death over the last 
12 years have been completely exonerated. It's not surprising 
that with such a sorry record of death penalty administration 
that several States are abolishing the death penalty, or had 
them overturned by courts, or placed moratoriums on their 
application while studies are being conducted, or just haven't 
applied a death penalty in many years. Connecticut, for 
example, hadn't executed anyone for 45 years.
    Some have referenced the econometric research of economist 
Joanna Shepherd as justification for the death penalty. More 
recently, she has done further analysis and elaboration on her 
research, and concluded that executions deter murders in six 
States; they have no effect on murders in eight States; and 
they increase murders in 13 States. That is the research 
justifying the death penalty.
    Now, mandatory minimum sentences clearly detract from the 
importance of the bill. Through rigorous study and analysis, 
mandatory minimums have been shown to be less effective, and 
thus waste money when compared to more effective approaches in 
the criminal justice system. And they are discriminatorily 
applied. And they violate common sense.
    Now, Mr. Chairman, I'd like unanimous consent to insert 
into this record, as we have others, the letter from the 
Judicial Conference that, among other things, notes that the 
mandatory minimums violate common sense.
    Mr. Coble. Without objection.
    [The information referred to is available in the Appendix.]
    Mr. Scott. Now, to suggest that opposition of mandatory 
minimums is soft on crime, I think, is inaccurate. When the 
plan is cost-ineffective, wasting money, is discriminatory, and 
violates common sense, it seems to me that opposing such a plan 
is not soft on crime. Mandatory minimums are just 
inappropriate, and don't work.
    Now, even though you've got the mandatory minimums in 
there, the ones in the bill appear arbitrary and confusing. For 
example, under section 7 of the bill, an individual who 
threatens a witness, victim, or informant, will get a mandatory 
10-year sentence. However, the same individual threatening a 
judge, under section 2 of the bill would only receive a 
mandatory minimum of 5 years.
    Now, we're not going to quote the numerous studies 
regarding the problems with mandatory minimums. But when we 
combine the impact of this bill and its mandatory minimums with 
the impact of similar bills that we're considering--the gang 
bill and the drug bill recently considered by this Committee--
clearly, there will be a massive prison impact if they're all 
enacted into law. The indications from the Sentencing 
Commission assessing the impact of the gang bill alone is in 
excess of $7 billion over the next 10 years. So I hope that you 
will join me, Mr. Chairman, in requiring a prison impact 
assessment from the Department of Justice regarding all of 
these measures.
    Just as clearly, Mr. Chairman, with the number of death 
penalties and mandatory minimums that we have that would apply 
to incidents that we have seen in our courts. We're not talking 
about the kind of people that will be deterred by such 
measures. And I hope we're not going to insult the public by 
suggesting that some who--somebody who would have shot a judge 
decided not to because we passed a new mandatory minimum 
sentence.
    So I look forward to the testimony of our witnesses, and I 
hope that we might actually enhance court security. But 
finally, Mr. Chairman, let me just say that I have a concern 
about discussing court security in a public session. And I 
don't know if you want to join me in this, but I would invite 
the witnesses, if they have concerns about talking about some 
of the security issues in public, to invite us to discuss these 
in private. Sometimes security measures are best not discussed 
in public. And if some would rather do it in private, I would 
invite that process. Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman. And never has he been so 
friendly to me. Never, never. But I have not abandoned my other 
role. I want to make that clear. But I guess the good news--and 
I'm looking directly at the U.S. Attorney. What attracted me to 
mandatory minimums to begin with were a couple of features.
    Number one, it provided the prosecution with added 
leverage. I think no one will argue with that. It promoted--or 
at least it hopefully promoted--consistency in sentencing. If 
``Bobby'' Scott commits a crime, and Howard Coble committed a 
crime under similar circumstances, hopefully, they will be 
awarded an identical sentence. That was one of the reasons. I 
just hope that we have not made the judges too inflexible in 
doing it.
    I'm just thinking aloud today. And we'll visit this, I'm 
sure, thoroughly as we go along.
    Mr. Scott. Will the gentleman yield?
    Mr. Coble. Yes, sir.
    Mr. Scott. The letter that will be introduced into the 
record from the Judicial Conference points out that, 
unfortunately, people who commit similar crimes may be very 
dissimilar in the seriousness of the crime. Just because they 
violated the same code section doesn't mean that the 
seriousness of the crime is identical.
    And they said that people who are similar will get very 
different mandatory minimums; whereas those who are the same 
often get very different sentences. And it's that inconsistency 
that they point out violates common sense in many areas.
    For example, in that drug bill we considered a couple of 
weeks ago, if you commit a crime within the zone, you get the 
draconian mandatory minimums; two feet away, outside of the 
zone, you don't get the mandatory minimum. Two people who have 
essentially committed the same crime, getting vastly different 
sentences because of the mandatory minimums.
    Mr. Coble. I thank the gentleman. We've been joined by the 
distinguished gentleman from Massachusetts, Mr. Delahunt. Good 
to have you with us, Bill.
    Ladies and gentlemen, good to have you panelists, and those 
in the hearing room, as well. It is the practice of the 
Subcommittee to swear in all witnesses appearing before it. If 
you would, please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative.
    We have four distinguished witnesses----
    Mr. Scott. Can we ask them to sit down?
    Mr. Coble. Oh, yes, you may be seated. I stand corrected. 
You may indeed resume your seats. I'm not used to being--you 
judges are used to giving directions to that. [Laughter.]
    We have four distinguished witnesses with us today. Our 
first witness is the Honorable Jane R. Roth, U.S. Court of 
Appeals Judge for the Third Circuit. In addition to serving as 
a U.S. Circuit Court Judge, Judge Roth is the Chairwoman of the 
Subcommittee--strike that--of the Committee on Security and 
Facilities of the Judicial Conference of the United States.
    Judge Roth received her undergraduate degree from Smith 
College, and obtained her law degree from the Harvard Law 
School. Following law school, Judge Roth served as attorney for 
Richards, Layton and Finger, and as a United States District 
Court Judge for the State of Delaware.
    Our next judge in line, the honorable--is Judge Kent. In 
addition to being a constituent of our friend to the far end, 
Representative Gohmert, she is also a personal friend. And he 
has asked permission to introduce her today, and I recognize 
the distinguished gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. It is indeed my great 
pleasure to introduce my good friend, formerly fellow district 
judge in Texas, Judge Cynthia Stevens Kent. Judge Kent does 
have over 20 years on the bench. She had been a county court 
law judge in Texas, beginning back in 1984, and then in '88 
went to the district bench; has been a district judge there.
    She got her B.A. from the University of Houston in '75; and 
then 2 years later, got her law degree. She was on the fast 
track through high school; she was on the fast track through 
college; she was on the fast track through law school. And 
she's pretty much been ahead of most of us all her life.
    She's also gotten her Master's of judicial studies there at 
the National Judicial College associated with the University of 
Nevada at Reno, in '99; and is working on her Ph.D. in the 
judicial studies program, as well. She's been a faculty member 
of the National Judicial College since '92; has been a constant 
teacher and lecturer on continuing legal education, including 
courses like ``Advanced Evidence,'' ``Handling Capital Cases,'' 
and ``Business Law.'' She co-authored the Texas Bench Book for 
District Judges and the Texas Bench Book for County Court Law 
Judges. She's written and published on Dalbert issues regarding 
experts and gatekeepers.
    She's been married for 29 years to Don Kent, civil defense 
attorney. They have three grown sons. She is a constituent, as 
you said; but even more important to me, she's my dear friend. 
And I'm proud to introduce Judge Cynthia Stevens Kent. Thank 
you, Mr. Chairman.
    Mr. Coble. I thank the gentleman from Texas. And good to 
have you with us, as well, Judge.
    Mr. Paul McNulty, United States Attorney for the Eastern 
District of Virginia, is our third witness. In addition to 
serving as a U.S. Attorney, Mr. McNulty serves as the Vice 
Chairman of the Washington Center--Baltimore High Intensity 
Drug Trafficking Area.
    Prior to becoming a U.S. Attorney, Mr. McNulty directed 
President George W. Bush's transition team for the Department 
of Justice, and then served as principal Associate Deputy 
Attorney General. He also served on this very Committee for 8 
years, first as a minority counsel, and subsequently as the 
chief counsel. Mr. McNulty is a graduate of Grove City College, 
and obtained his law degree from the Capital University School 
of Law.
    Our final witness is the Honorable John F. Clark, United 
States Marshal in the Eastern District of Virginia. Prior to 
his current appointment, Marshal Clark served as the Acting 
Marshal and Chief Deputy Director for the District. He has held 
numerous senior management positions with the Marshals Service, 
including Chief of the Internal Affairs Division, and Chief of 
the International Fugitive Investigations Division. Marshal 
Clark is a graduate of Syracuse University.
    Mr. McNulty, it is good to have you back on the Hill. It's 
good to have you, Judge Roth, Judge Kent, and Marshal Clark, on 
the Hill.
    Folks, we abide rather rigidly by the 5-minute rule, as you 
all have been told previously. If you could, confine your oral 
statements to 5 minutes. And your warning is when the red light 
illuminates into your eye. That tells you the ice on which you 
have been skating is thin. Then you will terminate.
    Now, we're going to make an exception today, and I don't 
think there'll be any objection to this. Judge Kent will 
provide for us a 5-minute presentation--Judge, the film. So you 
will give your testimony, Judge Kent, and then at the 
conclusion of your testimony, we will observe the film that you 
have brought to show us. And I think that will----
    [Discussion off the record.]
    Mr. Coble. I'm told you're going to do the film first. All 
right. So when Judge Roth completes her testimony, we'll 
recognize you, Judge Kent, for the showing of the film, and 
then your oral testimony. And then we'll move along to Mr. 
McNulty and Marshal Clark.
    Judge Roth, you may start.

 TESTIMONY OF THE HONORABLE JANE R. ROTH, CHAIR, COMMITTEE ON 
  SECURITY AND FACILITIES, JUDICIAL CONFERENCE OF THE UNITED 
                             STATES

    Judge Roth. Thank you, Mr. Chairman.
    Mr. Coble. Your mike I don't think is on, Judge Roth.
    The red light to which I referred is on the panel that 
appears before you all. Judge Roth.
    Judge Roth. Yes, thank you. This hearing presents an 
opportunity for all of us to heighten awareness of the current 
state of judicial security, which by statute is provided by the 
United States Marshals Service.
    Mr. Chairman, I am sure that you and the Members of the 
Subcommittee were horrified when you learned of the murders of 
United States District Judge Joan Lefkow's husband and mother 
in her home in Chicago. Subsequent events in a county 
courthouse in Atlanta serve as a vivid reminder of the 
potential dangers that participants in the judicial process 
face in this country every day.
    At its March 15 session, the Judicial Conference approved a 
resolution which calls upon the leaders of the Department of 
Justice and the Marshals Service to review fully and 
expeditiously all aspects of judicial security, and in 
particular security at judges' homes and other locations away 
from the courthouse. The resolution also calls for adequate 
funding for this essential function.
    The primary statutory duty of the Marshals Service is the 
protection of the judiciary. The Marshals Service acknowledges 
its duty to fulfill this role; yet time and time again, we have 
found that the Service does not have the resources necessary to 
fulfill this obligation. When we have repeatedly expressed our 
concern to the Marshals Service and to the Attorney General 
about Marshals Service staffing levels, we have been assured 
that the judiciary will be protected. Our requests to examine 
staffing levels have not, however, been honored. Our requests 
to participate in the determination of adequate staffing levels 
have been denied.
    And I think, ironically, there is no representative from 
the Marshals Service headquarters here today to explain those 
denials.
    For years, the Marshals Service has experienced significant 
staffing shortages. Although we have not been privy to actual 
staffing allocations by judicial district, many United States 
Marshals report to us that their staffing levels have been 
significantly reduced. The Marshals Service has acknowledged to 
us that the districts are operating up to 30 percent below the 
number of deputy marshals needed to perform all of the local 
marshals' responsibilities adequately.
    There are examples of Marshals Service staffing shortages 
across the country, particularly along the southern and 
southwestern borders. The Federal courts have expressed strong 
concerns about judicial protection for several decades. In 
fact, in 1982, the Government Accountability Office issued a 
report about the dilemma faced by the Marshals Service because 
its mission is not solely dedicated to the protection of the 
Judicial Branch.
    In that report, it was noted that U.S. Marshals are 
responsible for accomplishing missions and objectives of both 
the Executive and Judicial Branches of the Government. The GAO 
also noted at the time that it believes this is a difficult and 
unworkable management condition, and that the Director of the 
Marshals Service cannot properly manage law enforcement 
responsibilities assigned by the Attorney General, and the 
operation of the Federal judicial process suffers.
    Mr. Chairman, I recognize that this report is almost 25 
years old; but as I re-read it in preparation for this hearing, 
it became clear to me that the concerns outlined in the report 
are as relevant today as they were when the report was first 
released. The fact is that the Marshals Service is forced to 
serve two masters, and that there is constant tension and 
competition between the Marshals' law enforcement 
responsibilities and its primary statutory mission of security 
for the Judicial Branch.
    The Marshals Service's judicial security program also has 
experienced significant budgetary problems because, in our 
view, its law enforcement responsibilities have higher 
visibility than prisoner transportation, courtroom and off-site 
security, and threat assessment for judges and their families.
    It seems to my Committee that the Marshals Service never 
gets the resources it needs to get the job done. The Executive 
Branch consistently recommends slashing funds before the 
requests even make their way to Congress. In an op-ed that I 
penned for the April 9 edition of The Washington Post, I called 
upon key decision-makers to help us. I am therefore seeking 
your assistance in helping to protect the Federal judiciary in 
several ways.
    In February 1990, after the December 1989 assassination of 
Judge Robert Vance at his home in Birmingham, Alabama, by an 
explosive device sent by a disgruntled litigant, the judiciary 
called upon the Justice Department to implement a program of 
off-site security for judges. This incident was the third 
assassination of a Federal judge in recent history. All of 
these murders occurred away from the courthouse.
    The judiciary's request after the Vance murder was, in 
retrospect, a modest one: an education program for judges, 
their families, and court employees, about security precautions 
that should be taken when they are not in the courthouse, and a 
package of security equipment for every Federal judicial 
officer, including a home intrusion detection system.
    Although the Department and the Marshals Service initially 
supported this approach, the Department abruptly withdrew its 
support for funding such an initiative in November 1990, just 
11 months after Judge Vance's death. That is a cause of a great 
deal of our frustration.
    Let me outline for you the steps that we would like you to 
take in connection with the bill before you----
    First, support the request for $12 million that would 
provide a comprehensive package of off-site security equipment 
for all judges.
    Support section 13 of the bill, that would require 
consultation and coordination by both the Director of the 
Administrative Office of the Courts and the Director of the 
United States Marshals Service regarding security requirements 
for the Judicial Branch of Government.
    Support section 14 of the bill, that would establish 
significantly greater penalties for the recording of malicious 
liens against Federal judges.
    Support section 15 of the bill, that would provide 
emergency authority to conduct court proceedings outside the 
territorial jurisdiction of a court. The need for this 
legislation became apparent after September 11th.
    Support section 17 of the bill, that would provide 
permanent authorization to redact information from financial 
disclosure reports that could endanger the filer. It is 
important for Congress to act soon, because this essential 
security measure for Federal judges, employees, and their 
families will expire on December 31.
    Mr. Chairman, I thank you for the opportunity to appear 
before you. I speak on behalf of all the judges throughout the 
country. They appreciate giving us this opportunity. And I 
would be pleased to answer any questions you might have.
    [The prepared statement of Judge Roth follows:]
            Prepared Statement of the Honorable Jane R. Roth
    Mr. Chairman and Members of the Subcommittee:
    My name is Jane R. Roth. I sit on the Third Circuit Court of 
Appeals and serve as the Chair of the Committee on Security and 
Facilities of the Judicial Conference of the United States.\1\ This 
hearing presents an opportunity for all of us to heighten awareness of 
the current state of judicial security, which, by statute, is provided 
by the United States Marshals Service, an agency that is part of the 
Executive Branch's Department of Justice. (See 28 U.S.C. Sec. 566 (a)).
---------------------------------------------------------------------------
    \1\ The Judicial Conference of the United States is the judiciary's 
policy-making body.
---------------------------------------------------------------------------
    Mr. Chairman, I am sure that you and the members of the 
Subcommittee were horrified when you learned of the murders of United 
States District Judge Joan Lefkow's husband and mother in her home in 
Chicago. Subsequent events in a county courthouse in Atlanta serve as a 
vivid reminder of the potential dangers that participants in the 
judicial process face in this country every day. At its March 15, 2005, 
session the Judicial Conference approved a resolution which calls upon 
the leaders of the Department of Justice and U.S. Marshals Service ``to 
review fully and expeditiously all aspects of judicial security, and in 
particular security at judges' homes and other locations away from the 
courthouse.'' The resolution also calls for ``adequate funding for this 
essential function.'' A copy of the resolution is attached to this 
statement.

                   STAFFING SHORTAGES A MAJOR CONCERN

    The primary statutory duty of the Marshals Service is the 
protection of the judiciary. The Marshals Service acknowledges its duty 
to fulfill this role. Yet, time and time again we have found that the 
Service does not have the resources necessary to fulfill this 
obligation. When we have repeatedly expressed our concern to the 
Marshals Service and the Attorney General about Marshals Service 
staffing levels, we have been assured that the judiciary will be 
protected. Our requests to examine staffing levels have not, however, 
been honored. Our requests to participate in the determination of 
adequate staffing levels have been denied.
    For years, the Marshals Service has experienced significant 
staffing shortages. Although we have not been privy to actual staffing 
allocations by judicial district, many U.S. Marshals report to us that 
their staffing levels have been significantly reduced. Some Marshals 
tell us that the districts are operating up to 30 percent below the 
number of deputy marshals needed to perform all of the local Marshal's 
responsibilities adequately.
    There are examples of Marshals Service staffing shortages across 
the country, particularly along the southern and southwestern borders. 
Several years ago the chief district judge in the Southern District of 
Florida had to make an urgent plea for staffing to the Congress on 
behalf of his local Marshal. Of particular concern to some judges is 
the use of contract employees, usually off-duty local enforcement 
officers, to transport prisoners. Significant resources have been 
provided by Congress to the Marshals Service in recent years because 
the judiciary has requested funding that augments the funds requested 
by the Justice Department for the Marshals Service. In virtually every 
instance, it is because of the judiciary, not the Executive Branch, 
that significant levels of additional financial resources have been 
provided to the Marshals Service. Notwithstanding our efforts, the 
Marshals Service is still experiencing budget problems.
    At this point, the judiciary cannot tell the Congress or any other 
interested party whether the local Marshals have enough resources and 
staff. Furthermore, the Department refuses to share any information 
about Marshals Service staffing levels and formulas or to consider 
suggestions for change with us. The Judicial Conference's Executive 
Committee meets twice a year with the Attorney General to discuss 
security matters. Typically I attend that meeting. At this meeting last 
month, I expressed my concern to the Attorney General about leadership 
at the Marshals Service, the vacancies in several critical positions of 
great importance to the judiciary at the Marshals Service, the need for 
detailed information about Marshals Service staffing levels, and the 
need for courtroom security by deputy marshals in all criminal 
proceedings in which a defendant is present, i.e., not only when a 
defendant is in custody.

            COMPETING INTERESTS AFFECT RESOURCE AVAILABILITY

    The problem of available resources is endemic in the system. The 
federal courts have expressed strong concerns about judicial protection 
for several decades. In fact, in 1982, the General Accounting Office 
(now the Government Accountability Office) issued a report about the 
dilemma faced by the United States Marshals Service because its mission 
is not solely dedicated to the protection of the judicial branch.\2\ In 
that report, it was noted that ``U.S. Marshals are responsible . . . 
for accomplishing missions and objectives of both the executive and 
judicial branches of the Government.'' The GAO also noted at the time 
that it believes ``. . . this is a difficult and unworkable management 
condition'' and that the Director of the Marshals Service ``. . . 
cannot properly manage law enforcement responsibilities assigned by the 
Attorney General, and the operation of the Federal judicial process 
suffers.''
---------------------------------------------------------------------------
    \2\ U.S. Marshals' Dilemma: Serving Two Branches of Government, 
GGD-82-3, April 19, 1982.
---------------------------------------------------------------------------
    Mr. Chairman, I recognize that this report is almost 25 years old. 
But as I re-read it in preparation for this hearing, it became clear to 
me that the concerns outlined in the report are as relevant today as 
they were when the report was first released. The fact is that the 
Marshals Service is forced to serve two masters and that there is 
constant tension and competition between the Marshals' law enforcement 
responsibilities, which, of course, include fugitive apprehension, 
asset forfeiture, and witness protection, and its primary statutory 
mission of security for the judicial branch. The Marshals Service's 
judicial security program also has experienced significant budgetary 
problems because, in the view of the Committee on Security and 
Facilities, its law enforcement responsibilities have higher visibility 
than prisoner transportation, courtroom and off-site security and 
threat assessment for judges and their families.
    It seems to my Committee that the Marshals Service never gets the 
resources it needs to get the job done. The Executive Branch 
consistently recommends slashing funds before the requests even make 
their way to Congress. In an op-ed piece that I penned for the April 9, 
2005, edition of The Washington Post, I called upon key decision makers 
to help us. Some people believe that the Department of Justice will 
never support full resource levels for the Marshals Service, in spite 
of any Department of Justice statements to the contrary. Therefore, I 
am seeking your assistance in helping to protect the federal judiciary 
in several ways.

                           OFF-SITE SECURITY

    In February of 1990, after the December 1989 assassination of Judge 
Robert Vance at his home in Birmingham, Alabama, by an explosive device 
sent by a disgruntled litigant, the judiciary called upon the Justice 
Department to implement a program of off-site security for judges. This 
incident was the third assassination of a judge in recent history. All 
of these murders occurred away from the courthouse.
    The judiciary certainly did not ask for a protective detail for 
every judge in response to Judge Vance's death, as this was fiscally 
unfeasible. Its request was, in retrospect, a modest one--an education 
program for judges, their families and court employees about security 
precautions that should be taken when they are not in the courthouse, 
and a package of security equipment for every federal judicial officer, 
including a home intrusion detection system. Although the Department 
and the Marshals Service initially supported this approach, the 
Department abruptly withdrew its support for funding such an initiative 
in November of 1990, just 11 months after Judge Vance's death. In 1994, 
GAO issued another report on judicial security that found that the 
Department of Justice should incorporate consideration of off-site 
security needs into district security surveys and plans, using risk-
management principles to identify, evaluate, and prioritize such needs. 
After four and a half years, in December 1998, an off-site security 
policy was ultimately issued by the Marshals Service. The judiciary 
does not know how effectively the policy has been implemented because 
it is not privy to any internal policy or program reviews conducted by 
the Department of Justice or the Marshals Service. Furthermore, it was 
the judiciary, not the Department of Justice, which initiated the 
development of a training video and other materials used to educate 
members of the judiciary about off-site security precautions.
    In March of 2004, concerns were expressed by the Department of 
Justice's Inspector General about the Marshals Service's ability to 
assess threats, a matter directly related to off-site security. In 
December 2004, the Director of the Marshals Service reported that 
progress had been made with addressing the problems outlined in that IG 
report. But because the Marshals Service and the Department will only 
share limited amounts of information about how Marshals Service 
resources are deployed, it's anyone's guess as to whether threats 
against the judiciary are being handled appropriately. Based on what 
little we do know, only three people are tasked at Marshals Service 
headquarters with staffing the Office of Protective Intelligence as a 
primary responsibility. At one point, these staff members did not even 
report to the individual responsible for judicial security within the 
Marshals Service. Threat assessment cannot be a collateral duty. A 
focused, coordinated program with adequately trained personnel needs to 
be a priority.\3\
---------------------------------------------------------------------------
    \3\ It should also be noted that there is presently no permanent 
head of the Division within the Marshals Service who is responsible for 
judicial security. An individual has been acting in that position for 
almost 12 months.
---------------------------------------------------------------------------
                        COMMUNICATIONS STRATEGY

    I have tried on numerous occasions to establish a working group 
with the Department that could address both on- and off-site security 
needs of the judicial branch. One attempt at establishing such a group 
took place about four years ago--and failed. We had hoped that senior 
political and career officials would have engaged in this effort. Quite 
frankly, both the Marshals Service and the Department have refused to 
participate in a formal standing group that would be charged with 
assessing security needs for the judicial branch on an ongoing basis. 
The Committee on Security and Facilities believes that had the group 
been established, the Marshals Service and the judiciary would have 
been the obvious beneficiaries and that precious time would not have 
been lost. After the Department's Inspector General issued its critical 
report of the Marshals Service in March 2004, I again attempted to 
create a working group on judicial security. Again, the Department did 
not engage with us in this effort.
    The new Attorney General has established a working group within the 
Department of Justice to make recommendations on judicial security 
within sixty days. We greatly appreciate the Attorney General's 
efforts. Although actions have been taken to obtain input from the 
judiciary by this group, the judiciary is not a standing member of the 
group and the group is not specifically focused on security for judges 
and their families. Based on the past history I have enumerated, I am 
hopeful, but not confident, that this working group will provide useful 
advice to the Department of Justice and the Marshals Service. 
Unfortunately, it is almost two months since the tragic deaths of Judge 
Lefkow's family members, and the judiciary still does not know what 
specific plans the Marshals Service and the Department have for 
addressing our concerns.

           WHAT ACTIONS CAN BE TAKEN TO ASSIST THE JUDICIARY?

    Although much remains to be done, this Subcommittee can help the 
judicial branch in a number of ways at this time by:
    (1) Supporting a request for $12 million that would provide a 
comprehensive package of off-site security equipment for all judges. On 
April 21, 2005, the Senate passed a supplemental appropriations bill 
that includes $11.9 million for the U.S. Marshals Service for increased 
judicial security outside of courthouse facilities, including priority 
consideration of home intrusion detection systems in the homes of 
federal judges. I am hopeful that this amendment that was adopted on 
the Senate floor will be supported in the conference on that bill, and 
that funds will be provided for home intrusion detection systems for 
all federal judges.
    (2) Supporting section 13 of H.R. 1751 that would require 
consultation and coordination by both the Director of the 
Administrative Office of the United States Courts and the Director of 
the United States Marshals Service regarding security requirements for 
the judicial branch of government. As described throughout this 
statement, efforts have been made for decades to obtain information 
from the Department and the Marshals Service about our security needs. 
The 1982 GAO report included a recommendation that would require the 
Director of the Administrative Office of the United States Courts to 
cooperate with and assist the Attorney General in defining and 
obtaining pertinent information needed to determine each district 
court's base-level resource needs for U.S. Marshal personnel, and 
apprise Congress during the appropriation and authorization process, 
about the nature and status of any problems related to the use of 
marshals' resources and actions taken to resolve these problems.
    Notwithstanding our best efforts, no information has been provided 
by the Department that can help us to evaluate whether we are being 
provided with adequate protection. Therefore, a statutory change is 
needed to ensure that the judiciary obtains the information it needs to 
make recommendations about judicial security to key decision makers. As 
the primary user of marshals' services, enactment of this legislative 
change will help the judiciary to assess its security needs.
    (3) Supporting section 14 of the bill that would establish 
significantly greater penalties for the recording of malicious liens 
against federal judges. In recent years, members of the federal 
judiciary have been victimized by persons seeking to intimidate or 
harass them by the filing of false liens against the judge's real or 
personal property. These liens are usually filed in an effort to harass 
a judge who has presided over a criminal or civil case involving the 
filer, or who has otherwise acted against the interests or perceived 
interests of the filer, his family, or his acquaintances. These liens 
are also filed to harass a judge against whom a civil action has been 
initiated by the individual who has filed the lien. Often, such liens 
are placed on the property of judges based on the allegation that the 
property is at issue in the lawsuit. While the incidences of filing 
such liens have occurred in all regions of the country, they are most 
prevalent in Washington and other western states.
    (4) Supporting firearms training for judges. Threats against 
federal judges continue at a disturbing rate. Security of judges is 
oftentimes a personal matter. For that reason, the Judicial Conference 
supports a proposal to allow judges to carry firearms from state-to-
state. The Judicial Conference does not believe it is prudent for 
judges who carry firearms to do so without effective professional 
training, or without regular certification of proficiency as a 
condition precedent for carrying a weapon. All state and federal law 
enforcement officers receive such training and certification. Federal 
judges should be required to do so as well. A statutory change would 
require, as a legal condition precedent to carrying a firearm, that 
judges be trained and certified in a firearms use and safety program 
provided by the U.S. Marshals Service with the cooperation of the 
Judicial Conference. The Department of Justice and the Marshals Service 
do not oppose this initiative.
    (5) Supporting section 15 of the bill that would provide emergency 
authority to conduct court proceedings outside the territorial 
jurisdiction of a court. The need for this legislation has become 
apparent following the terrorist attacks of September 11, 2001, and the 
impact of these disasters on court operations, in particular in New 
York City. In emergency conditions, a federal court facility in an 
adjoining district (or circuit) might be more readily and safely 
available to court personnel, litigants, jurors and the public than a 
facility at a place of holding court within the district. This is 
particularly true in major metropolitan areas such as New York, 
Washington, D.C., Dallas and Kansas City, where the metropolitan area 
includes parts of more than one judicial district. The advent of 
electronic court records systems will facilitate implementation of this 
authority by providing judges, court staff and attorneys with remote 
access to case documents.
    (6) Supporting section 17 of the bill that would provide permanent 
authorization to redact information from financial disclosure reports 
that could endanger the filer. It is important for Congress to act soon 
because this essential security measure for federal judges, employees, 
and their families will expire on December 31, 2005.
    In 1998, Congress amended the Ethics in Government Act to provide 
the judiciary with authority to redact financial disclosure reports 
before they are released to the public. Congress recognized that the 
judiciary faced security risks greater than those of 25 years earlier 
when the Ethics in Government Act first became law. Congress 
established a process by which the judiciary would consult with the 
United States Marshals Service to determine whether information on a 
financial disclosure report should be redacted because its release 
could jeopardize the life or safety of a judge or judiciary employee.
    Not a day goes by without some unauthorized incursion into an 
information database containing personal information. These incursions, 
when coupled with other personal information already available on the 
Internet, give wrongdoers the capability to cause harm as never before. 
Were the redaction authority to be removed from the Act, certain 
personal information in the financial disclosure reports, not otherwise 
widely available, such as the unsecured location where a spouse works 
or a child attends school, may be widely publicized through the 
Internet and other information outlets. It will become that much harder 
to maintain the anonymity that has helped in the past to shield judges 
from personal attacks by disgruntled litigants and anti-government 
organizations.
    We believe that making the redaction authority permanent by 
removing the sunset provision from section 105(b)(3)(E) of the Act can 
be done without diminishing the basic purpose of the Act--to allow 
members of the public to form independent opinions as to the integrity 
of government officials. The judiciary recognizes the value of 
providing the public with a way to independently judge the conduct of 
government officials. The regulations adopted by the Judicial 
Conference carefully balance judges' security concerns with the 
public's right to view the information contained in financial 
disclosure reports. The judiciary has made a concerted effort to ensure 
that the authority conferred by section 105(b)(3) is exercised in a 
consistent and prudent manner.
    While H.R. 1751, which was introduced on April 21, 2005, addresses 
most of these issues, the bill also contains various provisions that 
expand the application of mandatory minimum sentences. The Judicial 
Conference opposes mandatory minimum sentencing provisions because they 
undermine the sentencing guideline regime Congress established under 
the Sentencing Reform Act of 1984 by preventing the systematic 
development of guidelines that reduce unwarranted disparity and provide 
proportionality and fairness in punishment. While we recognize the 
desire to increase the security of persons associated with the justice 
system, we believe that this can be accomplished without resort to the 
creation of mandatory minimums.
    In addition, section 10 of the bill places specific time frames on 
the district courts and courts of appeals in considering writs of 
habeas corpus on behalf of a person in state custody for a crime that 
involved the killing of a public safety officer. The district court 
would have to decide motions for evidentiary hearings, conduct any 
evidentiary hearings, and enter a final decision within specific time 
periods. The courts of appeals would also have to act within certain 
time frames in deciding appeals from orders granting or denying such 
writs and deciding whether to grant a petition for rehearing en banc. 
The Judicial Conference strongly opposes the statutory imposition of 
litigation priority, expediting requirements, or time limitation rules 
in specified types of civil cases brought in federal court beyond those 
civil actions already identified in 28 U.S.C. Sec. 1657 as warranting 
expedited review. Section 1657, which provides that United States 
courts shall determine the order in which civil actions are heard, 
already recognizes that habeas corpus petitions should be treated as an 
exception and must be given expedited consideration. The Judicial 
Conference views 28 U.S.C. Sec. 1657 as sufficiently recognizing both 
the appropriateness of federal courts generally determining case 
management priorities and the desire to expedite consideration of 
limited types of actions.
    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee today. Federal judges from throughout the country join me 
in expressing our appreciation for the time and attention you and the 
Subcommittee's staff have given to our security needs during these 
difficult times. We hope that action on the initial steps described 
above will help facilitate better communication between the judicial 
and executive branches and ultimately lead to an upgraded and improved 
United States Marshals Service. I would be pleased to answer any 
questions you might have.

                               ATTACHMENT

                JUDICIAL CONFERENCE OF THE UNITED STATES
                    RESOLUTION ON JUDICIAL SECURITY
                         ADOPTED MARCH 15, 2005

    The brutal murders of the husband and mother of United States Judge 
Joan Humphrey Lefkow of the Northern District of Illinois on February 
28, 2005, are an attack against the rule of law in the United States. 
This tragedy suffered by a member of our judicial family, as well as 
the horrific events that occurred on March 11, 2005, in the courthouse 
in Fulton County, Georgia, strike at the core of our system of 
government. A fair and impartial judiciary is the backbone of a 
democracy. These tragic events cannot and will not undermine the 
judiciary's essential role in our society.
    We, the members of the Judicial Conference, call upon leaders of 
the United States Department of Justice and of the United States 
Marshals Service (whose primary responsibility is the security of 
members of the federal judiciary and their families) to review fully 
and expeditiously all aspects of judicial security and, in particular, 
security at judges' homes and other locations away from the courthouse. 
We also call upon both the legislative and executive branches to 
provide adequate funding for this essential function.
    Accordingly, the Judicial Conference of the United States declares 
that (1) the crisis in off-site judicial security evidenced in part by 
the recent deaths of Judge Lefkow's husband and mother is of the 
gravest concern to the federal judiciary, and (2) addressing this 
matter is of the highest urgency to the Conference and will be the top 
priority in the judiciary's discussions with the Attorney General of 
the United States and other Justice Department representatives, 
including the Director of the United States Marshals Service.

    Mr. Coble. Thank you, Your Honor.
    Judge Kent, you may proceed with the showing of your film 
and then your testimony.

TESTIMONY OF THE HONORABLE CYNTHIA STEVENS KENT, 114TH JUDICIAL 
              DISTRICT COURT, SMITH COUNTY, TEXAS

    Judge Kent. Thank you, Chairman Coble, Ranking Member 
Scott, and other Members of the Committee. I am Judge Cynthia 
Stevens Kent, and I've been a judge in east Texas for more than 
20 years.
    Before I begin my testimony--I appreciate the time--I 
wanted to share with you a short video of the terror that I 
experienced firsthand on February 24, 2005, along with hundreds 
of east Texas citizens, at the Smith County Courthouse 
shooting. And they'll play the video at this time. The first 
part is from a television account, which will give you an 
overview. And then, we have a security camera in the first 
floor of the courthouse.
    [Video played.]
    Judge Kent. Now, the next part is from the security camera 
on the first floor of the courthouse. I was handling a high-
profile capital case, and had added security in my courtroom 
because of an escape risk. Had I not had that, these officers 
would not have been at the courthouse to respond to this 
situation on the steps of the courthouse, and the assailant 
would have been able to enter the courthouse or kill more 
people on the streets.
    [Security tape footage played, with commentary by Judge 
Kent, as follows:]
    Judge Kent. That gentleman was John DeNoles, a defense 
investigator.
    You can see on the top left Ms. Arroyo and her son are 
walking, and they're now being shot at right now by Mr. Arroyo. 
She is--and he's moved around to the top left. She is now dead.
    This is a citizen who was walking into the courthouse, now 
running into the courthouse to avoid the shots.
    Her son has been shot.
    Officer Dolison here is now responding, along with Sergeant 
Alan Langston. Officer Dolison and Langston are looking for the 
assailant. He's over to the left. Officer Dolison gets shot 
four times, seriously injured. I'm glad to report, he is now in 
rehabilitation at this time.
    All of the--you know, you can't see anything now because 
all of the back windows have been shot out of the courthouse. 
There were 70 bullets found inside of the courthouse after this 
shooting. That's not including the ones shot elsewhere.
    This is a citizen who was outside, diving into the 
courthouse to avoid the shots.
    Sergeant Langston was hiding behind a metal trash can.
    We now have Deputy Michael Strickland, Detective Clay 
Perrett, and Lt. Marlin Suell, who have come out of my 
courtroom on the second floor to respond to the shooting 
happening downstairs. They come forward to try to take aim on 
the assailant outside, who has now killed a private citizen, 
Mr. Wilson.
    Officer Suell has now been hit in the head, struck by a 
bullet by the assailant. Michael Strickland steps down to 
reload. Detective Perrett has now just been shot in the head, 
also. Those were grazing shots, and they did survive those 
injuries.
    Coming now, you're going to see the shooter has now gone to 
get in his car. He's starting to drive off in that red truck 
there. There is Investigator Jim Castle, who is responding, 
being shot at. There is Deputy Brown Carlton, who is now 
responding, along with Officer Dustin Rust. These officers rush 
out now to try to follow this gentleman, who's shooting as he 
goes down the street.
    A high-speed chase ensues, and the shooter is killed 
several miles down the road, after shooting as he drives down 
the streets of Tyler, in Smith County.
    This was an extremely serious situation. And we were just 
blessed that I happened to be in a high-security case at the 
time this occurred, so there were some officers available to 
respond to this situation.
    And I'll start my testimony at this time.
    Mr. Coble. Very well.
    Judge Kent. Over the years, I have received numerous death 
threats, as have many judges in America. I am currently the 
subject of a very serious threat, and would be remiss at this 
time not to thank Texas Ranger Kenny Ray, and the Texas 
Rangers, the FBI, the ATF, the Tyler Police Department, the 
Smith County Sheriff's Office, and the Smith County District 
Attorney's Office, for their aggressive and professional 
investigation and protection.
    One only has to watch the video that we have just seen to 
see the bravery and courage of the peace officers that 
responded to the Smith County shooting, and also to understand 
the need for H.R. 1751 and other legislation to protect judges 
and all involved in the judicial system.
    As any person in America, it is my personal responsibility 
to use common sense in protecting myself against acts of 
violence. As a Texan, I take full advantage of my 
constitutionally-protected right to self defense. However, 
these threats are not just a personal threat against me and my 
family. These are acts of domestic terrorism, and are meant to 
disrupt our judicial system and our civilization.
    I've spoken with many judges in Texas and around the Nation 
regarding courthouse and judicial security. As you can see from 
these charts, incidents in court are a real present threat. The 
National Center for State Courts has graciously assisted me in 
assembling some information which might be helpful to each of 
you in your decisions on how to protect our judicial system 
from disruption and attack.
    Last Thursday, in D.C., the National Center, in conjunction 
with the National Sheriffs Association, hosted the National 
Summit on Court Safety and Security. Also, there is a chart 
highlighting their preliminary findings from the summit, which 
are included in my full written testimony. Many of these 
findings are also included in Congressman Gohmert's H.R. 1751.
    Additionally, I have included recommendations and draft 
language for amendments for future legislation to enhance the 
protection of our judicial system. And I'd like to highlight 
just a few of the most important recommendations, several of 
which are included in 1751.
    First, to make personal security for judges a legislative 
and law enforcement priority. Congress should provide funding 
for home and court security systems for the Federal judiciary, 
and maybe consider a tax credit to State judges who have home 
security systems installed or upgraded.
    Restrictions on Internet and public dissemination of 
personal information concerning judges, law enforcement 
officials, jurors, prosecutors, and other court personnel, 
should be enacted. And systems should be set up to alert law 
enforcement when someone is accessing that information on 
judges.
    To pass and aggressively prosecute laws which provide 
tougher penalties for threats, assaults, and murders of judges. 
And I support the provisions of H.R. 1751 which provide for 
what you all call mandatory minimum sentencing for threats and 
crimes of violence against individuals covered by the bill. We 
call them ``punishment ranges'' in Texas.
    To establish a grant program to distribute funds to enhance 
security for State courts by providing for assessments, 
technical assistance, education, and training. And I've 
attached some suggested language for this proposal.
    To create a national clearinghouse to collect and correlate 
Federal and State breaches of security against judges and our 
courts, to help develop protocols for aggressively responding 
to these threats.
    To consider legislation which would allow properly trained 
and certified judicial officers to carry personal protection, 
even when traveling outside of their home state.
    To enhance funding for Federal investigation and 
prosecution of prison and street gangs in America.
    To amend the definition of the ``local unit of government'' 
to include State and local courts, to ensure that these courts 
are eligible to apply directly for Federal funding for justice-
related programs.
    To include in Federal statutory language the mandate that 
State courts are included in the planning for the disbursement 
of Federal funding administered by State executive agencies.
    And finally, to create a small set-aside of the homeland 
security funding, to assist State courts in meeting the 
requirements of the USA PATRIOT Act of 2001, and providing for 
security needs of the State courts. And I've attached some 
proposed language for congressional consideration.
    Even in America, we certainly face foreign threats against 
our way of life. I know that each of you is thoughtful and 
serious in your approach to keep us free and safe from these 
foreign security threats. The domestic threats against the 
judicial system are also very real, and certainly worthy of 
your attention and thoughtful legislation. And I thank you for 
your time this afternoon.
    [The prepared statement of Judge Kent follows:]
        Prepared Statement of the Honorable Cynthia Stevens Kent
    My name is Cynthia Stevens Kent and I serve as Judge of the 114th 
Judicial District Court in Tyler, Smith County, Texas. I have been 
invited by the Chair of this Committee, Representative F. James 
Sensenbrenner, Jr. of Wisconsin and by the sponsor of H.R. 1751, 
Representative Louie Gohmert of Texas, to testify regarding judicial 
security issues from the perspective of a State Judge.
    I appreciate the invitation and I hope that I can do justice in 
expressing some of the security concerns and needs of the state 
judiciary in America. The state judiciary appreciates this committee 
and Congressman Gohmert's and Congressman Anthony Weiner's interest and 
attention to crime, terrorism and security concerns as they relate to 
the security of judges, witnesses, jurors, and other court participants 
and personnel.
    I have served as a judge in East Texas since 1984. From 1984 to 
1988 I served as a County Court at Law Judge with general civil 
jurisdiction and misdemeanor criminal jurisdiction. From 1989 to the 
present I have served as a state district court judge with general 
civil jurisdiction and felony criminal jurisdiction and have presided 
over thousands of cases. I am a past Chair of the Judicial Section of 
the State Bar of Texas and Past Chair of the Texas Center for the 
Judiciary, Inc., on the faculty of the National Judicial College and 
the Texas Center for the Judiciary. I have been an invited faculty 
member at numerous judicial conferences across the United States. I am 
privileged to have served our nation and the state of Texas as a member 
of the judicial branch of government.
    Our American system of self government includes an important 
defender of liberty and critical check and balance in the state and 
federal judicial system. Recently, there is increased discussion and 
debate regarding decision making by the judiciary. Some agree with 
certain decisions and others disagree. However, I know that almost all 
of the members of the American judiciary are hard working people who 
carefully listen to the facts of cases and scholarly apply the laws 
passed by the legislatures within the restraints of our various 
constitutions. This is my work as a simple country judge.
    We have seen the problems of societies without strong and 
independent judicial systems. We have seen the disruption of 
civilizations where members of the judiciary are threatened, kidnapped, 
and killed.
    Several years ago in D.C., I attended a National Judicial College 
course entitled ``When Justice Fails.'' This course discussed the 
threats and intimidation used against the judicial system in Nazi 
Germany and the ultimate failure of the judges to protect the rights, 
freedoms, liberty and life of the minority and oppositional voices in 
the world. Today we see that disruption in some South American 
countries whose judges are threatened and killed because someone 
disagrees with their decisions or enforcement of the law.
    Even in America we certainly face foreign threats against our way 
of life. I know that each of you is thoughtful and serious in your 
approach to keep us free and safe from those foreign security threats. 
The domestic threats against our way of life is also very real and 
certainly worthy of your attention and thoughtful legislation.
    H.R. 1751, a bipartisan bill, is a thoughtful and wonderful start 
to addressing the need to protect judges, prosecutors, jurors, 
witnesses, and those who are involved in our judicial systems. It is 
proposed federal legislation and so rightly focuses on security for 
federal courts and judges. However, there is much that Congress can do 
to assist the states in enhancing security for state courts, judges, 
and those required to attend court proceedings.
    Many of you are aware of the recent, tragic, and much publicized 
shooting outside the Smith County courthouse where I work. We are all 
aware of the murder of Judge Joan Lefkow's husband and mother and the 
murder of Judge Rowland Barnes, his court reporter, his deputy sheriff, 
and a federal officer in Atlanta. These are domestic attacks against 
individuals and against our system of justice which have occurred in 
the last two months.
    Over the years, I have received numerous death threats, as have 
many judges in America. I am currently the subject of a very serious 
threat and I would be remiss not to thank Texas Ranger Kenny Ray, the 
F.B.I., ATF, Tyler Police Department, Smith County Sheriff's Office, 
and Smith County District Attorney's office for their aggressive and 
professional investigation and protection. One only has to watch the 
video's I have provided Congressman Gohmert from the February 24, 2005 
shooting in Tyler to see the bravery and courage of the peace officers 
as they respond to the Smith County shooting. The common threat of 
professionalism and valor of these public servants in Tyler, Atlanta, 
Chicago, D.C., New York City, and around the nations is remarkable and 
we are blessed to have these men and women protecting and serving 
America.
    Although some of these threats against the judiciary are by 
mentally disturbed individuals who would not actually carry out their 
threat, many of these threats are very real and imminent concerns.
    As any person in America, it is my personal responsibility to use 
common sense in protecting myself against acts of violence. As a Texan, 
I take full advantage of my Constitutionally protected right to self 
defense. However, these threats are not just a personal threat against 
me and my family, these are acts of domestic terrorism and are meant to 
disrupt our judicial system and our civilization.
    I have spoken with many judges in Texas and around the nation 
regarding courthouse and judicial security. The National Center for 
State Courts has graciously assisted me in assembling some information 
which might be helpful to each of you in your decisions on how to 
protect our judicial system from disruption and attack. The National 
Judicial College and the Texas Center for the Judiciary, Inc. have also 
assisted me in gathering information for this presentation. Finally my 
twenty years of service as a state judge handling dangerous people and 
high profile cases has helped me formulate a number of suggestions for 
your committee's consideration.

         1.  Personal security for judges should be a legislative and 
        law enforcement priority.

           A.  Congress should provide funding for home and court 
        security systems for the federal judiciary.

           B.  Congress should provide a tax credit to state judges to 
        have home security systems installed or upgraded.

           C.  Public access to certain private information on judges 
        should be limited or pulled, if requested, from public view. 
        For example diagrams of the judge's homes should not be 
        included on the website of the local tax appraisal district.

           D.  Systems should be set up to alert law enforcement when 
        someone is accessing public information on judges.

         2.  Laws which provide tougher penalties for threats, 
        assaults, and murders of judges should be passed and 
        aggressively prosecuted. I support the provisions of H.R. 1751 
        which provide mandatory minimum sentences for threats and 
        crimes of violence against individuals covered by the bill.

         3.  Establish a grant program to distribute funds to state 
        courts to enhance security for state courts. This grant program 
        should include provisions for evaluating court facilities and 
        procedures, technical assistance to implement needed 
        improvements, enhanced security equipment, technology and 
        operations, enhanced information sharing, and to develop and 
        provide for the education and training of judges, law 
        enforcement personnel, court house security and court personnel 
        on security procedures and appropriate responses to a crises 
        situation

         4.  A national clearing house should be created to collect and 
        correlate federal and state breaches of security on judges and 
        develop protocols for aggressively responding to these threats.

         5.  Consider federal legislation which would allow properly 
        trained and certified judicial officers to carry personal 
        protection when traveling outside their home state.

         6.  Provide additional funds to the U.S. Marshall's office to 
        enhance their invited security audits of state, and local 
        courthouses and availability to assist local law enforcement in 
        developing security plans and protocols to deal with threats 
        against the judges, prosecutors, courthouses, jurors, 
        witnesses, and other court personnel.

         7.  Enhance funding for federal investigation and prosecution 
        of prison and street gangs in America. Provide additional 
        funding for federal officers to assist state officers in the 
        investigation and prosecution of prison and street gangs.

         8.  Provide federal judges with emergency communication 
        devices to law enforcement with GPS capabilities.

         9.  Provide tax credits to state judges to purchase emergency 
        communication devices to law enforcement with GPS capabilities.

        10.  Review and amend rules and regulations of prisons in 
        handling mail marked ``legal mail'' to protect against 
        biological terrorism and gang organized threats against the 
        judiciary.

        11.  Amend the definition of ``local unit of government'' to 
        include state and local courts to ensure that these courts are 
        eligible to apply directly for federal funding for justice 
        related programs.

        12.  Include in federal statutory language the mandate that 
        state courts are included in planning for disbursement of 
        federal funding administered by state executive agencies.

        13.  Create a small set-aside of Homeland Security funding to 
        assist state courts in meeting the requirements of the USA 
        PATRIOT Act of 2001 and providing for security needs of the 
        state courts.

        The above suggestions are just a few ways in which Congress 
        could assist in protecting the judiciary and America from 
        foreign and domestic enemies of freedom. Many of these same 
        proposal should also extent to jurors, prosecutors, defense 
        attorneys, witnesses, and court personnel.
    When judges are subject to threats, intimidation, and assault, our 
entire system of justice is under attack. Although free dialogue and 
public debate regarding judges is certainly important and 
constitutionally protected, responsible legislators and politicians 
should understand that when someone paints with a broad brush the 
simple country judges of America can be smeared with the partisan paint 
of the day. Inciting the public to distrust, disrespect, or threaten 
the members of the judicial system only invites anarchy. There are good 
and bad judges just as there are good and bad plumbers. However, 
keeping our judges secure and independent helps prevent justice from 
failing the designs of our founding fathers and the needs of 2005 
America.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Your Honor.
    Mr. McNulty.

   TESTIMONY OF THE HONORABLE PAUL J. McNULTY, UNITED STATES 
             ATTORNEY, EASTERN DISTRICT OF VIRGINIA

    Mr. McNulty. Mr. Chairman, it's a delight to be here 
today--I should know how to use microphones by now--to see you, 
Mr. Chairman, and Mr. Scott, my fellow Virginian. His district 
includes large portions of the Eastern District of Virginia. 
And Mr. Delahunt, it's nice to see you again, and to meet 
Congressman Gohmert.
    This subject, of course, is most important, to discuss the 
safety of our judges, prosecutors, law enforcement officials, 
victims, and witnesses involved in the American judicial 
system.
    Really, this is about all citizens who come in contact with 
the system of justice; because as that video so graphically 
depicted, people coming to do business at the courthouse, for 
all kinds of reasons, can be subject to harm as a result of 
these attacks on the administration of justice. And really, 
it's an attack on the rule of law; because our entire way of 
life as Americans is built upon the rule of law, and this 
requires the safe administration of justice.
    I'd like to discuss some of the impact of these incidents 
on the Eastern District of Virginia. The recent events--but in 
fact, going back to Oklahoma City--have really heightened our 
concern for safety at the Federal courthouse in Alexandria, 
Virginia. The effects of domestic terrorism, like the Oklahoma 
City bombing, and the threat of international terrorism on the 
security of the Federal courthouses and U.S. Attorney 
facilities around the country, have been felt especially--those 
threats have been felt especially in Alexandria.
    Our Federal courthouse complex was actually being built 
when the Oklahoma City bombing occurred. And as a result, 
security upgrades were installed, such as a blast wall, and 
intrusion detection devices, and the elimination of public 
parking in the building.
    Since September 11, however, concern has increased about 
threats to the courthouses generally, and to U.S. Attorney 
offices. In the Alexandria courthouse complex we have made many 
changes. Visible security enhancements were installed, 
including jersey walls, hydraulic barriers, camera systems, 
screening devices, shelters in place, and chemical detection 
systems. In fact, Mr. Chairman, I venture to say that probably 
no courthouse in the United States has gone through more 
security changes more rapidly than what's happened in 
Alexandria over the past 3 years. It's really transformed the 
entire neighborhood.
    In addition, a court security committee has been in place 
for many years in Eastern Virginia. The focus of the committee 
is the security of the court complex in Alexandria, as well as 
the other judicial facilities in the district. We have a 
courthouse in Richmond, a small courthouse in Newport News, and 
also in Norfolk.
    The purpose of this committee is to discuss security issues 
between the Marshals Service and the court family. There are 
periodic meetings, chaired by the chief judge, and it gives 
opportunities for the court to discuss security concerns and 
give approval to proposed security upgrades.
    My office has a very close working relationship with the 
marshals, and we have participated in the court security 
meetings on several occasions. The marshal and I, John Clark, 
frequently share threat and event information so that our 
individual responses are well coordinated with regard to the 
safety and security of our witnesses, the potential threat 
level of cases being indicted, and the possible public and 
press attention high-profile cases might receive.
    On almost a daily basis, as I turn into the garage in the 
courthouse, I now see deputy U.S. Marshals dressed in their 
tactical gear, armed with semi-automatic weapons, standing 
along the sidewalk; in marked contrast to the pre-September 11 
security.
    And last week was a very interesting example of the threat 
faced by those who work in our courthouse in Alexandria. We 
were in the midst of a trial involving an individual named Ali 
Al-Timimi, who just earlier today was convicted with providing 
material support to terrorist organizations, a sequel to our 
Virginia Jihad case.
    At the same time, we were also in the middle of a trial of 
four MS-13 gang members for capital murder of a Federal 
witness. This 17-year-old witness was pregnant at the time of 
her murder. She was going to testify in another MS-13 murder 
case, when she was allegedly stabbed to death. The order to 
murder her, as alleged in our indictment--and I say this case 
is currently being prosecuted, so I'm speaking just in terms of 
the allegations--was given from the jailhouse.
    And on top of all of this--the Timimi trial, the MS-13 
murder case--we also had the Moussaoui plea, and that occurred 
last week, as well. So the Marshals Service and the court 
security officers were working especially hard. And we see 
these kinds of challenges at the State level, and my testimony 
includes some of that. I also discuss in my testimony the 
threats faced by judges.
    I want to say, in conclusion, Mr. Chairman, that Federal 
prosecutors--I really want to speak for just a split second 
about the Federal prosecutors' threat. They face enormous 
threats in their jobs. And in my testimony, I describe the 
percentage, or the numbers of threats against Federal and local 
prosecutors, and the kinds of--types of threats they've seen.
    And we've had some of these cases in my district, but one 
in particular, in Seattle, Washington, in October of 2001, 
involved the murder of an Assistant United States Attorney, Tom 
Wales. He was working at home, and he was shot by a sniper 
through his window of his house. That case has not been solved 
yet, and it has been a real wake-up call for all of us in the 
U.S. Attorney community.
    So in conclusion, Mr. Chairman, I want to thank you for 
holding this hearing and for drawing attention to this very 
important subject. I think we have to be proactive. We can't 
just wait until these crimes occur. And I thank the Committee 
for its interest in the subject. I'm happy to answer your 
questions.
    [The prepared statement of Mr. McNulty follows:]

                 Prepared Statement of Paul J. McNulty

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Coble. Thank you, Mr. McNulty.
    Marshal Clark.

  TESTIMONY OF JOHN F. CLARK, UNITED STATES MARSHAL, EASTERN 
DISTRICT OF VIRGINIA, APPEARING FOR THE UNITED STATES MARSHALS 
                 SERVICE, DEPARTMENT OF JUSTICE

    Mr. Clark. Thank you, Mr. Chairman, Congressman Scott, 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today to discuss the role of the United 
States Marshals Service in protecting the Federal judiciary. It 
is vital to our democracy that those who work within our 
judicial system do so without any fear or intimidation. Recent 
tragic events in Chicago and Atlanta highlight the need for 
securing our courts and protecting those who work in them.
    I'm a 22-year veteran of the United States Marshals 
Service, and I have personal knowledge of the important task of 
protecting judges in our judicial process. During my career, I 
have protected Supreme Court justices, district judges, 
Government witnesses and jurors, and can attest to the fact 
that it is a difficult and demanding job.
    Since my appointment by President Bush to serve as United 
States Marshal for the Eastern District of Virginia, I have 
witnessed firsthand the vital importance of protecting our 
Federal judicial process. Just last week, members of my staff 
provided a safe and secure environment at the U.S. District 
courthouse in Alexandria, as terrorism suspect Zacarias 
Moussaoui entered a plea of guilty to his involvement in the 9/
11 terrorist attacks.
    During the same week, members of the notorious MS-13 gang 
were on trial for their alleged involvement in the killing of a 
former gang member. At that trial, deputy marshals were on hand 
to ensure that all present were protected.
    In yet another matter last week, a jury was being protected 
during their deliberations on a terrorism-related case.
    In recent years, I have come to the realization that events 
such as these are all in a day's work for the men and women of 
the United States Marshals Service. Because of this, our 
security planning and execution needs to be the very best it 
can be, as failure is not an option.
    In the Eastern District of Virginia, I am constantly 
meeting and consulting with the judges, Mr. McNulty's staff, 
the clerk of court, U.S. probation, and others who have a stake 
in protecting the judicial process. On a regular basis, court 
security and building security meetings are held to review, 
assess, and make recommended improvements to our existing 
security plans.
    The Eastern District of Virginia was the first in the 
nation to conduct a terrorism response and readiness drill that 
simulated a chemical and biological attack within the Federal 
courthouse in Alexandria. It involved a host of local, State, 
and Federal emergency response agencies, as well as role-
players from the community and the courthouse employee ranks.
    More recently, at the U.S. courthouse in Norfolk, the U.S. 
Marshals Service hosted a training exercise that involved 
several area police and fire and emergency medical personnel 
who came together for a scenario that involved finding and 
safely disposing of mock explosive devices within the 
courthouse. Exercises like these test our communication 
capability and interoperability with first responders and 
security plans against real-world possibilities.
    We rely heavily on our law enforcement partners, and are 
constantly assessing, adjusting, and improving security 
measures, and where necessary, to ensure we are as prepared as 
possible against those who might threaten or harm judges or 
disrupt our judicial process. In short, it's a team effort.
    Throughout our 215-year history, the United States Marshals 
Service has given the highest priority to our judicial security 
mission, and we are proud of our accomplishments. Yet we must 
keep ever vigilant and ready. With threats against the 
judiciary on the rise, it is vitally important that we all work 
together to maintain a safe and secure environment for our 
justice system.
    I'm now happy to respond to any questions you may have.
    [The prepared statement of Mr. Clark follows:]

           Prepared Statement of the Honorable John F. Clark

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Coble. Thank you, Dean. We will start our questions 
now. And we impose the 5-minute rule against us, as well, so 
we'll be ever mindful of the red light.
    Let me say this, in view of something Mr. Scott said 
earlier, folks. During the questioning, if at any time you feel 
that responding--this is an open forum, after all. If you feel 
responding would in any way compromise your safety, we can 
attend to that subsequently. Hopefully, that won't happen. But 
start my 5 minutes, if you will, now.
    Mr. McNulty, given the Supreme Court's decision in Booker 
Fanfan, making the Federal sentencing guidelines advisory, what 
impact, if any, does that decision have upon mandatory 
minimums?
    Mr. McNulty. Well, I think that mandatory minimums were 
already an important tool, among many tools that Federal 
prosecutors have, for getting cooperation of witnesses; but 
after that decision, I think it makes that tool even more 
valuable. Because now, if you are working with an individual 
who's going to provide cooperation in an investigation and you 
calculate the sentence under the guidelines, there's no 
guarantee that the judge will actually impose that sentence. 
There'll be--the judge is free to depart from the range and 
sentence really at any level.
    Mandatory minimums provide a limit on where that sentence 
could go. And so I think that we are beginning to see how those 
cases that involve mandatory minimums--and that's certainly a 
sub-set of all of the cases and all of the types of cooperation 
we see--are especially important to us. So I do think that 
they've taken on even more significance after Booker Fanfan.
    Mr. Coble. Thank you. Mr. Chabot, I think, has a question 
to put to Judge Roth, so I will--let me talk to you for a 
minute, Marshal Clark, consistent with some of Judge Roth's 
testimony. Describe for us, if you will, the resources and any 
changes in resources that have occurred in the last few years 
in your district regarding personnel, generally.
    Mr. Clark. Sure. I currently have an onboard staffing level 
of 54 full-time employees. And to highlight how slow the 
resource growth has been within the Marshals Service, when I 
reported to the district in 1997 as a chief deputy, our full-
time employee ceiling was at 48. So in that length of time, we 
have seen a very slight growth.
    Another example I like to use sometimes to highlight the 
resource issue is that I did have the privilege to serve as a 
deputy marshal in the Richmond office during the mid-1980's, 
where we had one supervisor and seven deputy marshals. Today, 
we have one supervisor and eight deputy marshals. So from the 
mid-'80's to current, that's, again, a very slow growth, I 
might say.
    So resources, while we are able to use them to the fullest 
extent possible, that I am pleased to say, there are times when 
we do struggle as an agency to provide and meet all of the 
resource requirements that sometimes are placed upon us.
    For example, additionally within the Eastern District of 
Virginia, we often employ outside resources, such as off-duty 
sheriff deputies or police officers, to help us handle 
prisoners; for example, within the cell block. Last year, 
within our district we spent approximately $200,000 to pay for 
such part-time help. So overall, the resource issue is 
sometimes demanding upon us.
    Mr. Coble. Thank you, Marshal. Let me put another question 
to you, Marshal. I am told that the rule varies from district 
to district and State to State, but FBI agents, DEA agents, 
oftentimes are required to surrender their firearm prior to 
entering a courtroom. It seems to me that that would--well, 
strike that. Let me say it a different way.
    I believe if these agents, thoroughly trained in firearm 
safety and proficiency, were allowed to retain their firearms, 
that might well be a plus, it seems to me. If the outbreak that 
occurred in Atlanta, for example, if you had an FBI agent or a 
DEA agent along with the Marshals Service in the courtroom, 
fully armed, that would be a far better scenario, it seems to 
me, than to have an FBI agent unarmed. What do you say to that?
    Mr. Clark. Mr. Chairman, that's an interesting question. 
And across the country, you're right, there are districts that 
do not allow--such as in the Eastern District of Virginia; we 
do not allow law enforcement officers--agents, if you will--to 
come into the courthouse with a weapon. And we certainly make 
no judgment upon their ability, their capability, to safely use 
that weapon. However, within the courthouse itself, from the 
Marshals Service perspective, we like to know who is armed and 
who is not; particularly in a courtroom setting.
    And so often we find that agents, particularly Federal 
agents who are in the courthouse representing or participating 
in the prosecution of their case, sometimes are not dressed in 
coat and tie. Or even if they are, we as an agency may not know 
that they are agents. And therefore, we often have essentially 
an identity situation, of knowing who is friendly to us, and 
who is not. So that's one part of the process.
    Another part is in, often, cases such as in Eastern 
Virginia, the judges themselves have requested that just the 
marshals in our court security staff have firearms available to 
them.
    Mr. Coble. My time has expired. The gentleman from 
Virginia.
    Mr. Scott. Thank you very much. Judge Roth, you indicated 
that you support section 13 of the bill. How would the 
difference in the procedure help court security?
    Judge Roth. Well, I have described the frustration of the--
--
    Mr. Coble. Judge, a little closer to the mike, if you will.
    Judge Roth. I'm sorry. I have described the frustration of 
the courts in trying to obtain from the Marshals Service 
exactly what staffing patterns are needed of deputy marshals in 
a court to provide adequate security; and also, whether those 
staffing patterns are being met. I think, with the consultation 
and coordination between the Director of the Marshals Service 
and the Director of the Administrative Office of the Courts, we 
could determine appropriate staffing levels for court security 
in every district, and we could make sure that those staffing 
patterns are being met.
    We receive information from marshals around the country 
about staffing shortages that they currently have. This is 
confidential information. I don't want to give it to you, 
because the people who gave us the information can get in 
trouble. But there are some serious shortages, including 
inadequate staffing in the cell blocks--one deputy marshal 
being in charge of a cell block containing 30 or more 
prisoners--inadequate day-to-day staffing in the courts. And we 
feel that section 13 is important to make sure that we do have 
adequate staffing patterns, and that there are sufficient 
deputies to fill the required slots.
    Mr. Scott. Now, is section 13 enough? Because you still--
wouldn't you still have the bifurcated commitment to not only 
the Department of Justice law enforcement, but also to the 
Judicial Branch court security?
    Judge Roth. I think the bifurcation of responsibilities in 
the Marshals Service is very serious. We would hope that, with 
the passage of section 13, we could participate with the 
Department of Justice in getting adequate funding for the 
Marshals Service.
    We realize that the Department of Justice must go through 
OMB to get their funding, and sometimes that is cut down. 
Nevertheless, the judiciary has been responsible for getting 
increased funding for a number of functions of the Marshals 
Service, including the JSIs, the Judicial Security Inspectors, 
for every district. And we feel that if we were on top of the 
information, we could help them get the funding that they do 
need.
    Mr. Scott. Thank you. Mr. McNulty, do you support section 
13?
    Mr. McNulty. I don't have a position on that. The 
Department of Justice hasn't taken a position on this bill, and 
so I can't give you any response today.
    Mr. Scott. Okay. Marshal Clark, Mr. McNulty mentioned the 
courthouses in Richmond and Newport News, both of which are 
being constructed. Has the Marshals Service been involved in 
making sure that the construction is done in such a way that 
security can be enhanced?
    Mr. Clark. Yes, we most certainly are. We are involved at 
every level of the--I would say, the construction phase; 
particularly in conjunction with my headquarters, we work out 
all of our space requirements, our security requirements, 
issues regarding our cell block, prisoner handling. All of that 
is worked completely through with members of our headquarters 
staff for the security, necessary security.
    Mr. Scott. Several have mentioned the funding and the 
staffing. Can somebody indicate to me where this money--is 
there money in the bill for additional staffing and additional 
grants for security?
    Judge Roth. Mr. Scott, there is $12 million in the bill 
which would be dedicated primarily toward off-site security for 
judges. I think there is more that is needed for an overall 
review--oh, I'm sorry, it's in the supplemental. There is need 
for an overall review of staffing needs and further requests.
    Mr. Scott. Okay. But the bill does not have that funding? 
The 12 million--there's money in there for witness protection, 
but I didn't see anything for--sorry?
    [Discussion off the record.]
    Mr. Scott. Grants to the States? Mr. Chairman, the 
gentleman from New York, Mr. Weiner, asked me to pose the 
question about the appointment process; whether or not we ought 
to continue to use the patronage system for appointments of 
marshals, rather than a system that would be based more 
directly on qualifications. Should the system be changed? The 
bill has the appointment change from the President to the 
Attorney General. Is that a good idea? And will that enhance 
the possibility, or probability, that merit will be the 
criteria, rather than partisan politics?
    Mr. Clark. Mr. Scott, we certainly have across the Nation 
some very qualified and very well trained marshals that have 
been appointed throughout the country. However, as a career 
employee, I have probably the unique ability to look on sort of 
both sides of the fence. I am an appointed position; however, 
I'm also a career individual.
    And so, it would make sense on the one hand to have 
individuals with a career background to assume these positions, 
such as the special agents in charge of various other Federal 
law enforcement agencies. However, the system as it has been 
since 1789 is a tough one to change, as we know.
    So with regard to the provision to strike that and have the 
appointments made by the Attorney General, I certainly wouldn't 
oppose it, and would think that with all measures of fairness 
we could find qualified applicants for the position of marshal.
    Mr. McNulty. Mr. Scott, I might point out that when I was 
working with the Subcommittee that bill was passed by this 
Subcommittee twice in the 1990's. It passed once on the House 
floor on suspension, and died in the Senate. The second time, 
it actually lost on the House floor on a suspension vote, after 
extensive opposition by sheriffs and others in the country who 
wanted to continue to have those positions available to them.
    Mr. Scott. And Mr. Chairman, if I could just pose a 
question, and I don't need an answer now. But the gentleman 
from New York has apparently sent a letter to the Marshals 
Service regarding a decision in staffing in the New York area, 
and hasn't received an answer yet. So if Mr. McNulty can see 
that a response comes to that letter. I think it's from a judge 
in the Eastern District of New York. We'll get you the details 
of that, so you can respond.
    Mr. McNulty. Okay.
    Mr. Coble. The gentleman's time has expired. In order of 
appearance, the gentleman from Texas, Mr. Gohmert, is 
recognized.
    Mr. Gohmert. Thank you, Mr. Chairman. I do appreciate this 
important hearing and your calling it; appreciate the prompt 
treatment of this bill. As a bit of a response to some of the 
things that were said early on in the opening statements, in 
this society it is important to have disagreement. It's 
important to have criticism. But when it comes to our justice 
system, the delineation between criticism and disagreement 
should stop clearly--a big line of demarcation between 
criticism, disagreement, and threats of violence or violence 
against those who are participating.
    So I see the justice system as what should be the last 
bastion of civility in our society; that as long as we have a 
civilized society, the courts ought to be protected all the way 
around, be the last place where people can come together, take 
turns in stating their position, putting on evidence, making 
arguments, and come to a civilized conclusion. And that is why 
I think it is so important to protect the system.
    When I hear the term ``draconian'' used on some of these 
things in the bill, what I see as draconian is having a justice 
system in a civilized society where we do not make extremely 
severe penalties for disrupting that civilized system and 
making clear to everyone that we will protect the system 
because that is what a civilized society will do. Otherwise, we 
fall into the realm of a Third World nation, where these type 
things occur all the time.
    Judge Kent, thank you, my friend, for being here. You have 
mentioned a number of things in your opening statements. One of 
the things addressed--and this is, Judge Roth, in talking with 
you earlier--about fictitious liens. A lot of people haven't 
heard about that. But there are fictitious liens that have been 
filed against judges. Judge Kent, are you familiar with that 
personally?
    Judge Kent. Well, I know in Texas we have a group, the 
Republic of Texas, who doesn't believe Texas is a State, and 
they believe that they're an independent republic. And they 
have their own court system set up. And they issue judgments 
and place liens, and try to record those liens in the 
legitimate system there in Texas. And that's caused a lot of 
judges a great deal of trouble, with respect to their credit 
and financial status, because of these fictitious liens and 
judgments that are attempted to be filed against them. So I 
think that's an issue. And probably, the Federal judiciary 
faces it, also.
    Mr. Gohmert. And of course, Judge Kent, you mentioned 
threats to you. And of course, all of us that have been 
judges--or I guess most of us--have had threats. And often 
times, as you've indicated, it is from people who are 
incarcerated at the time. And that does seem to be a problem.
    You were in the meeting we had with the Federal judges and 
other U.S. Marshal, other law enforcement officials, recently. 
Are you aware of there being an ongoing problem with people 
behind bars, like in State facilities, threatening judges?
    Judge Kent. I am personally aware of this situation. And 
certainly, I appreciate the remarks earlier about not going 
into specifics with respect to that; let law enforcement do 
their job. However, that is the situation, particularly with 
gangs. There's a growing group of prison gangs, and having 
connections on the outside with street gangs, that are involved 
in that type of intimidation and threats.
    And I know, you know, what we do in court, as the simple 
country judge, truly, that I am--I'm awed to be here today--you 
know, is to listen attentively, determine the facts of the 
case, apply the law as the legislature and the Constitution set 
it out. It is not our job to get threatened. It is not our job 
to have to deal with that as judges. And so we rely on law 
enforcement to help protect us. And we're hopeful that Congress 
and the State legislatures will help us with that, to deal with 
the prison gangs and deal with those threats with aggressive 
prosecution of those individuals.
    Mr. Gohmert. We have had situations where people behind 
bars in State prison thought it would be more attractive to be 
in a Federal penitentiary. And so, they threaten judges, 
Federal officials, hoping they'd get transferred.
    You're aware, I would take it, that in this bill it 
proposes stacking any additional threat, or sentence as a 
result of a threat, on top of any State penalty. I thought one 
of the suggestions by a Federal judge back in Tyler was 
interesting--well, I see my time's out. But that was to put 
warnings in State facilities that it won't help you get 
transferred to a Federal facility if you threaten or plot 
against a judge. It will be stacked, and you won't start doing 
that time until you finish your State time.
    My question was going to be if you thought that would be 
helpful.
    Judge Kent. And I'm the personal beneficiary of that help. 
I recently had one of the other threats, and the gentleman was 
prosecuted in the Federal courts because he used the mail to 
send the threat. And the Federal judge did stack the sentence. 
And I think that sent a strong message. An amazing thing 
happened: from that penitentiary unit, which I had received 
several threats from, they've stopped from that unit. So maybe 
the message got out.
    Mr. Gohmert. Thanks, Judge Kent.
    Thank you, Mr. Chairman.
    Mr. Coble. The gentleman's time has expired.
    The gentleman from Massachusetts.
    Mr. Delahunt. Thank you, Mr. Chairman. And just to make an 
observation, Mr. Chairman, about your comment about arming of 
DEA agents and other law enforcement officials in the 
courtroom, recently we had a tragedy in the State of Rhode 
Island--I come from New England--where a local police detective 
had his weapon, his handgun, taken from him, and he was killed 
by a defendant.
    So I think, if I hear the marshal correctly--and you can 
tell me if I'm misinterpreting you--that sometimes those 
decisions are best left to the individuals in charge of 
security in a particular courthouse.
    Mr. Clark. I would certainly agree with that; that it is 
often best left to the individual courts. For example, I should 
clarify further that in the Eastern District of Virginia, for 
example, we already have worked out with our local law 
enforcement first responders that, obviously, if there is an 
emergency within the courthouse or some type of an incident, 
that any first responders, obviously, would be allowed to come 
and go from the court. And it is also difficult sometimes, in 
working through the policies with the judges themselves.
    Mr. Delahunt. Right. And it clearly has to be coordinated 
between the court, the service. And some sort of an accounting 
has to be made for whom is permitted to carry a firearm in the 
courthouse. But again, I would suggest this is not something 
that we should rush into, in terms of taking action here.
    But I want to get to the testimony of Judge Roth, and 
congratulate you for your candor.
    Judge Roth. Thank you.
    Mr. Delahunt. We often hear, or we heard recently about 
Congress holding judges accountable. I think what you have 
effectively done here today is challenged us to be accountable. 
Because I think we all share as a goal the protection of the 
judiciary. Clearly, without an independent judiciary in this 
country, one that is not susceptible to influence of any sort, 
our viable, healthy democracy will erode. So you have been very 
candid and very frank in your testimony. It's refreshing. I 
suspect that you are a person that tends to be very frank and 
candid under any circumstances.
    But I think it's important that we read the testimony of 
Judge Roth. Again, to emphasize it and underscore it, ``It 
seems to my Committee that the Marshals Service never gets the 
resources it needs to get the job done. The Executive Branch 
consistently recommends slashing funds before the requests even 
make their way to Congress...Some people believe that the 
Department of Justice will never support full resource levels 
for the Marshals Service, in spite of any Department of Justice 
statements to the contrary. Therefore, I am seeking your 
assistance in helping to protect the Federal judiciary in 
several ways.''
    You then further state, ``The Department refuses to share 
any information about Marshals Service staffing levels and 
formulas, or to consider suggestions or change with us.'' Let 
me be really clear. The Judicial Conference has never--at 
least, in your experience--consulted with the Director of the 
Marshals Service about a needs assessment for security for 
judges. Is that what I can interpret?
    Judge Roth. We have asked for that information. We have not 
obtained it. We feel----
    Mr. Delahunt. Well, you know, I'll tell you something, Mr. 
Chairman. I think that is unconscionable.
    And I think you indicated earlier that you were--you 
noticed that the Director of the Marshals Service was not here 
today.
    Judge Roth. Right.
    Mr. Delahunt. And I'm sure--Mr. Clark, I'm sure you are a 
career employee that performs your service well. But this just 
doesn't stand. This is indeed something that I cannot--I just 
can't imagine. You shock me with your testimony.
    And I would hope that the gentleman from Texas would 
consider an amendment when the time comes, if this bill does go 
to markup, an amendment that would mandate not just simply 
consultation--and maybe I should ask for the opinion of Mr. 
McNulty, since he's here representing the Executive Branch--
mandate a needs assessment for the entire Federal judiciary, in 
a report to Congress, a report to this Judiciary Committee, to 
ensure that that plan is implemented, both with funding and the 
resources necessary. Otherwise, we're just sitting here, 
wasting our time.
    Judge Roth. We would support----
    Mr. Delahunt. It starts with that.
    Judge Roth. We would support such an effort wholeheartedly, 
enthusiastically.
    Mr. Delahunt. Mr. McNulty, what's the position of the 
Executive Branch?
    Mr. McNulty. Well, I can't give you the position of the 
Executive Branch.
    Mr. Delahunt. Well, what's your position, Mr. McNulty?
    Mr. McNulty. Right, as the U.S. Attorney in Virginia. But 
from my limited perspective of what I've observed--and by the 
way, I appreciate very much what you're saying, and I think 
you've raised a very important point.
    I know that Attorney General Gonzales has been working 
closely with the judiciary in the last--since he's been in 
office, in the last 2 months. I think they've had a number of 
meetings with the conference on this subject. I think he has 
established a working group within the Department to see how we 
can better provide security to the judiciary. So this is a 
subject that I know he cares about deeply.
    Mr. Delahunt. Well, that's very good news. And would you 
please convey back to the Attorney General my remarks and my 
observations? And I would hope, okay, that the Department would 
support an amendment to the bill filed by Mr. Weiner and our 
freshman Member of the judiciary, former Judge Gohmert; because 
I just think that is intolerable, particularly given what we 
have seen occurred.
    We don't even have a needs assessment. This isn't even 
about providing the necessary resources. We're operating in the 
dark here. And look what's happened. And what are we going to 
do? Just simply sit around and pass mandatory sentences, and 
think that that's going to deter and protect these men and 
women who sit up on that bench?
    Mr. Gohmert. Will the gentleman yield?
    Mr. Delahunt. I yield.
    Mr. Gohmert. Mr. Delahunt, I appreciate your comments. And 
that's why we added section 13 in here. Maybe it does need to 
go forward--I mean further than it does.
    Mr. Delahunt. I want a report back to this Committee.
    Mr. Gohmert. But I was very concerned when I found from 
Federal judges that there was no consultation there, or not 
adequate. And I thought that was abysmal. And that's why 13 is 
there. If it needs to go farther, then I'm open to do what we 
need to.
    Mr. Delahunt. If the Chair would indulge me for an 
additional 30 seconds, I would suggest strongly, as the 
principal sponsor of this legislation, that written within 
section 113 [sic]--and I'd be happy to work with the 
gentleman--that we mandate a report to the Congress, to ensure 
the implementation of a safety plan for Federal judges.
    And we can do it on an annual basis. We could work out the 
details to that effect. But there's got to be an accountability 
here, that clearly is lacking.
    Mr. Coble. I thank the gentleman. I was going to say to the 
gentleman from Texas, I believe yours and Mr. Weiner's bill at 
least addresses in part some of Mr. Delahunt's concerns. And 
perhaps you all can get together subsequently to that end.
    The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I want to first 
apologize to the panel for not having been here at the 
beginning of the testimony. I will review all the testimony 
that we have in writing. I was participating in a news 
conference on a bill that's going to be coming before the House 
this week, CIANA [ph], which passed through the Judiciary 
Committee and through my Subcommittee, the Subcommittee on the 
Constitution. So I want to apologize for that.
    Now, I might have missed the Chairman saying this, so if 
I'm repeating I apologize to him for doing that. But I wanted 
to congratulate Mr. McNulty for his new position. And I can 
just say that when he was a staff member of the Judiciary 
Committee he did a tremendous job, through some difficult 
times, as he may recall; some that were very national issues 
and very divisive issues, and that we're still fighting about 
up here sometimes.
    Mr. Coble. Will the gentleman suspend?
    Mr. Chabot. I'll yield, yes.
    Mr. Coble. In order to suck up to the U.S. Attorney, I, 
too, want to congratulate. [Laughter.]
    I failed to do that.
    Mr. McNulty. The bottom of my district does touch North 
Carolina, so that's good.
    Mr. Chabot. Anybody else want to suck up here, while we're 
at it?
    But really, you did a wonderful job for us then, and I'm 
sure you're going to do a tremendous job in this new position. 
So congratulations. It couldn't have gone to a better person.
    My question is to Judge Roth and to Mr. Clark here. And let 
me preface this by saying that I represent Cincinnati. And the 
Chief Judge of the Federal District Court there for the 
Southern District of Ohio is Sandra Beckwith, who I've known 
for many years. She was a judge in Hamilton County, both at the 
municipal level and then the common pleas level. And then she 
went to the--became a county commissioner there. And she and I 
served on the county commission for four or five years 
together. So I've known her very well. And we've kept in touch 
on a number of these issues relative to the courts, and that's 
been a great help to me, and I think to her as well.
    But Judge Beckwith has indicated her concern about the 
security in and around the Federal courthouse in Cincinnati. 
The General Marshal Service issued an RWA approval to the GSA 
in the amount of $278,000, to begin the project in August 2000. 
Subsequently, an RWA in the amount of $150,000 was issued to 
complete the project.
    However, GSA and the Marshals Service determined that an 
extra $230,000 was needed to cover the entire cost. And it was 
expected that the security system would be funded, approved, 
and built by this year, by 2005. The RWA will expire in August, 
and the original funds may not be available to them. And so 
that's just to give you a little background on the security 
issue that we've been working with there for some time.
    And Judge Roth, in your testimony you referred to what you 
consider the lack of proper coordination and consultation 
between the U.S. Marshals and the Judicial Conference with 
respect to resource allocation and security needs. Mr. Clark, 
for the U.S. Marshals office, paints a somewhat different 
picture.
    Now, maybe what we have is, you know, a difference in 
perceptions to some degree. But I would ask both you, Judge 
Roth, and you, Marshal Clark, to each address the coordination 
and information sharing issue. How much already occurs, and 
what, if anything, needs to be done to improve the coordination 
and consultation between the Judicial Conference and the 
marshals?
    Now, the bill includes language aimed at ensuring such 
coordination and consultation between the Administrative Office 
of the U.S. Courts and the Marshals Service. If enacted, how do 
you envision the process would work? And what specific changes 
do you believe will occur, or should occur? And either one of 
you is free to go first on that. Judge Roth?
    Judge Roth. If I could begin, let me say first of all we 
are very aware of the problem you speak of in Cincinnati. That 
has been--is being worked on, and will be solved within the 
next 10 days.
    Mr. Chabot. Great. Thank you very much.
    Judge Roth. So Judge Beckwith, I think, will be relieved 
with that resolution.
    The installation of security equipment in courthouses, 
there has been very good coordination between the Marshals 
Service and the courts on that instance. And that is not what 
we're concerned about in the consultation. The requests for 
security equipment upgrades in existing courthouses and new 
courthouses is worked out between the Marshals Service and the 
Administrative Office of the Courts, and is approved by my 
Committee in our budget requests every year.
    Our real concern is about the staffing of the Marshals 
Service. What is needed in a given district is deputy United 
States marshals to provide adequate court security in that 
district? How is that formula established? What does that 
formula call for? And is that formula being met?
    That is what we are primarily concerned about. That is what 
we would see in the terms ``consult'' and ``coordinate.'' And 
we would hope that that consulting and coordination, as I 
mentioned, would then lead to the adequate funding to staff the 
protection necessary for each of the districts.
    Mr. Chabot. Okay. Thank you very much, Judge. Marshal 
Clark?
    Mr. Clark. Congressman Chabot, within the Eastern District 
of Virginia, I do coordinate frequently with two members that 
are on the Judicial Facilities and Security Committee. We have 
Judge Henry Hudson, who serves in our Richmond office, and 
Judge Henry Morgan, who serves in the Norfolk division.
    And so I do from time to time get a chance to talk to them 
about some of the issues that are both local in scope and 
national in scope. And they frequently--particularly Judge 
Hudson--will call me to seek my advice or my input on some of 
the issues that are before the Committee.
    I would certainly agree with Judge Roth that wherever we 
can collectively share information, determine what works best 
in terms of staffing levels, from a local perspective I would 
certainly support that.
    Mr. Chabot. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Coble. I thank the Chairman.
    I have a couple of brief questions. We'll have sort of a 
modified second round here. Judge Roth, I know you're the 
chairwoman related to security, so let me ask you about witness 
intimidation. How significant a problem is it in the Federal 
courts? And have you seen an increase or a decrease in recent 
months?
    Judge Roth. That is not really a topic that is within the 
jurisdiction of my Committee. I will be very happy to get--
compile that information and get it to you for the record.
    Mr. Coble. If you would do that, I would appreciate--I'd be 
interested to know that.
    Judge Kent, you mentioned in your testimony a current 
threat imposed against another judge in Texas. Can you describe 
the nature of the threat and the security measures, if any, 
that were taken? Or if you can't do that, I understand that.
    Judge Kent. Well, as I, and as the minority Member, said, 
to keep our remarks with respect to security issues maybe close 
to the vest. But there are specific threats that are made at a 
number of judges. We had one in our area, you know, outside of 
myself, other judges, that are extremely serious threats.
    We have in the past--I have to compliment the FBI, because 
the FBI has been very aggressive in helping when there are 
threats that involve even State judicial members, to help in 
the investigation of that; along with the Texas Rangers and 
local law enforcement.
    But it is important--and you asked about witnesses--those 
threats against judges and witnesses, that there is aggressive 
attention to that. Witnesses have--and particularly after our 
courthouse shooting that you saw, we had witnesses saying they 
were not going to come and testify. And the district attorney's 
office had to really talk with them and explain to them how we 
were going to keep them safe through added security members in 
our courthouse, before they would even come to court and 
testify on misdemeanor cases that were set for trial. Jurors 
that said they were not going to come and serve as jurors 
because of what they perceived, the lack of security.
    So some of the recommendations by the National Center for 
State Courts, I think, are excellent, where there can be some 
help to the State courts in these security issues.
    Mr. Coble. So I take it, Your Honor, you would favor 
assistance to States in developing witness protection programs?
    Judge Kent. Absolutely. I think it would help with the 
witness protection programs, and I think there are some other 
recommendations that could help with general security measures 
for State courts.
    Mr. Coble. I thank you.
    The gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Does witness 
protection--does that include protecting witnesses in addition 
to the witness protection plan that we see where they 
disappear, get a new identity? Are there other witness 
protections that need to be funded?
    Judge Kent. I think probably these gentlemen would know 
better than I.
    Mr. McNulty. Well, there are different ways to secure the 
safety of witnesses. On a short-term basis, there are 
safehouses. And my experience, the investigative agency--let's 
take the FBI, for example--will take responsibility for 
securing the safety of a witness on a short-term basis. Perhaps 
it's over the course of a weekend, or just in a period of time 
preceding trial.
    Mr. Scott. And that takes funding.
    Mr. McNulty. That takes some funding, though limited 
funding. And we have run into some recent issues, because of 
budget cutbacks, on that score.
    What the Marshals Service, of course, does is, if those 
witnesses really are going to be facing severe threats over a 
long time, then these investigative agencies essentially 
nominate someone for the witness protection program. They 
sponsor them. And the Marshals Service gives them a new 
identity and puts them into the full program.
    You really have to--and I'll speak for John Clark for a 
moment. You really have to decide, though, up front, are you 
going to do it or not. Because halfway measures create more 
problems.
    Mr. Scott. A lot of the bill adds, as we have pointed out, 
mandatory minimums. Are there changes in actually definitions 
of criminal law that are in the bill, or is it just mostly the 
increased penalty? Are there any things that are in the bill 
that would be illegal that are not legal now--that are not 
illegal now, that would be illegal under the legislation?
    Mr. McNulty. I think it does expand Federal jurisdiction in 
some places. I'm not an expert on the legislation. I looked it 
over quickly. But as I looked it over, I thought there were 
some places where there were provisions that expanded Federal 
jurisdiction; particularly in relation to law enforcement 
officers at the local level and potential Federal prosecutions 
involving acts of violence against----
    Mr. Scott. I know, but all of these would have been illegal 
under every State law.
    Mr. McNulty. Oh, creating--you mean proscribing conduct 
that's not prohibited anywhere?
    Mr. Scott. Right.
    Mr. McNulty. I'm not--I have not----
    Mr. Scott. You don't think so?
    Mr. McNulty. Didn't see anything like that. And I wouldn't 
know for sure, because you have to compare it to State law.
    Mr. Scott. Well, you know, we've kind of talked about this. 
It just seems to some of us that increasing a penalty for 
things that are already illegal isn't going to have a big 
effect on people's behavior. I mean, a guy that shot--what?--
three, four people, and then died in a shoot-out, isn't going 
to be deterred by a mandatory minimum sentence.
    And if we're not proscribing anything that's not now 
illegal--there are a couple of things in here, the Internet, 
the judges' financial disclosure statements, some others, that 
I think are technical, that I think we could probably work 
with.
    There's going to be a problem with the Internet because how 
you can control--we've had other pieces of legislation that 
have pointed out how difficult it is to regulate the Internet, 
because it is an international phenomenon, and the server may 
be about anywhere, and everybody that has access to the 
Internet has access to that. And the Department of Justice 
can't really do much for a server that's physically situated 
outside of the country.
    With that, Mr. Chairman, I'll yield back.
    Mr. Coble. I thank the gentleman.
    The gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. One comment I would 
like to address, too, though. I constantly hear people who are 
against death penalties being imposed make the comment there's 
no effect on murder. And I would concede that where you take 20 
years to implement the capital punishment it's not much 
deterrent. Having been appointed back in the '80's to represent 
a capital murder defendant who was convicted, and having done 
an excellent job on his behalf, I'm quite familiar with how 
that all works. But these things are a deterrent.
    And when you mentioned someone who was killed in the 
process after shooting three or four people not being deterred 
by enhanced penalties, I would point out to the witnesses, to 
my colleagues in Congress, this man went to the trouble of 
putting on body armor. He was thinking about his own well-being 
after killing these other people. And if he will go to the 
extent to put on body armor, thinking about his own well-being, 
then the thought process would also extend to, ``What's going 
to happen to me if I'm caught?'' So I think it can have a 
deterrent effect. And that's why we're pushing forward.
    A couple of other areas I wanted to touch on. Tax credit 
for State judges was mentioned; and also had it mentioned by a 
Federal judge that, gosh, if we're not going to give them the 
support, the finances, to have off-site security for their 
cars, their homes, at least give them a tax credit. And I'm all 
for that, and don't mind pushing a bill to that effect.
    We'd need to do that separately, because our friend, 
Chairman Thomas, would probably want to have something to say 
about that. But that would be separate from this bill, and 
that's something that still might be possible. Mandatory 
minimums, I think we do owe it to the judges, the AUSA that was 
mentioned. They deserve to have home protection, and we need to 
do what we can to help them.
    The witness program, I'd point Members to that; that 
witness protection grant money being available in the bill.
    Also, there was mention earlier about writs. I do believe 
justice delayed is justice denied. And this does make a 
provision for moving writs along. And I would direct my dear 
friends and colleagues to the fact that, for example, the Ninth 
Circuit is known for taking writs and sitting on them, and 
sitting on them, and sitting on them, and sitting on them. And 
sometimes, giving people, especially attorneys, deadlines--even 
judges--is extremely helpful. So that's why we wanted that to 
be a part of the bill, as well.
    I would like--you know, you've made statements, each of the 
four of you. In the time I've got left, I would really--since 
this is not a markup, I'd like your input. You've heard 
questions. You've heard each other testify. Starting with Judge 
Roth, is there anything else that you would like us to 
consider, or have in mind, or perhaps supplement in this bill?
    Judge Roth. I think the section 13, which we have discussed 
extensively. I would like to point out that there are other 
aspects of that that concern me; not just the staffing pattern 
but, for instance, the Office of Protective Intelligence at the 
Marshals Service. Our understanding is this is a new office. It 
has only three people. We are concerned whether that office is 
going to take the proactive role necessary in coordination with 
the other law enforcement agencies to determine what the 
threats are to judges.
    We have been concerned that the Marshals Service does not 
think there's a threat unless a judge receives a letter or 
someone says, ``I'm going to do you harm.'' And we think--we 
believe that there must be a greater proactive activity by the 
Marshals Service in their protective intelligence, to determine 
where threats may exist and what may be done in order to 
protect the courts from those threats. And we feel that the 
consultation and coordination should extend into that area.
    Mr. Gohmert. Okay. Thank you, Judge.
    Judge Kent. Congressman Gohmert--Judge Gohmert--other than 
my recommendations about being able to carry my gun outside of 
Texas, to create a small set-aside of Homeland Security funding 
to assist the State courts in meeting the requirements of the 
USA PATRIOT Act. That can provide additional security needs for 
State courts. So to look at the ways that Congress can perhaps 
assess and help State courts in their security needs.
    Mr. Gohmert. Okay. Thank you, Judge. Mr. McNulty?
    Mr. McNulty. Well, I would defer to the President's budget 
request for the Marshals Service. But I have to say that this 
Committee, apart from this legislation, may want to work 
closely with the Appropriations Committee, to look at the 
adequacy of resources.
    The Marshals Service does a tremendous amount of good with 
the limited resources they have. And when Marshal Clark was 
describing the lack of growth in his office, I was struck by 
how that compares to the growth of prosecutors in my office, 
the number of detainees. Since I've been U.S. Attorney for 
three and a half years, I think we went from a population of 
about 500 people being detained on a given day, pre-trial, to--
what?--800 now, right, John?
    Mr. Clark. That's correct, if you look at the workload 
measures over the last few years, compared to, perhaps, 
staffing increases that other agencies have received. And 
certainly, the Marshals Service--and I'm speaking, again, from 
the Eastern District of Virginia; where, again, when I was a 
deputy marshal in Richmond in the mid-'80's, you practically 
knew all the prisoners by name. I mean, they were--there were 
not too many. And now, just in a place like Richmond, we're 
seeing the population approaching 300.
    So to not have the growth level to keep up with the 
workload demands is certainly, and can be, a burden. So I would 
certainly support--while the President's budget has been 
helpful, I would also say that anything the Committee can do to 
help us there would be appreciated.
    Mr. Gohmert. Thank you.
    Mr. Coble. I thank the gentleman. We're pleased to have the 
gentlelady from Texas joining us. Good to see you, Ms. Jackson 
Lee.
    I'm going to ask the gentleman from Texas if he will assume 
the Chair. I have got North Carolina constituents who are 
waiting to bark at me. And as I depart, I want to thank the 
panel for your time and your contribution today. And I want to 
thank those in the audience for having stayed around until the 
last dog has been hanged. I think this has been a good hearing. 
And we will revisit it again.
    Mr. Gohmert. See you later.
    Mr. Gohmert [presiding]. Thank you, Mr. Chairman.
    At this time, the gentlelady from Texas.
    Ms. Jackson Lee. I yield to Mr. Delahunt. I will follow 
him.
    Mr. Gohmert. Very well.
    Mr. Delahunt. Yes, thank you, Mr. Chairman. Just a few 
questions for Judge Kent. And thank you for your testimony. I'm 
sure that was a very difficult experience. What has been the 
response--obviously, we're a Nation that embraces the principal 
of federalism. And there are clear responsibilities on the part 
of the State government. What has been the response of the 
Texas legislature to these security issues? If you could, give 
it just maybe a minute.
    Judge Kent. Yes. I think that the Texas legislature 
certainly is involved with a number of the issues that they're 
trying to deal with in a short time. They meet a very short 
time every 2 years.
    Mr. Delahunt. Have they--excuse me. I'm going to interrupt 
you, because the time is moving.
    Judge Kent. Yes.
    Mr. Delahunt. Have they done anything at all, in terms of 
providing you the adequate resources?
    Judge Kent. The only thing that they have done in the past 
dealing with the lien situation is they've passed some 
legislation dealing with that. Dealing with resources on the 
local level, they do not fund the local counties. That's up to 
the county commissioners. And our county commissioners are 
evaluating our security after this situation.
    Mr. Delahunt. Okay. When did this incident occur?
    Judge Kent. February 24 of this year.
    Mr. Delahunt. February 24. So it's only several months.
    Judge Kent. Absolutely.
    Mr. Delahunt. Are there proposals before the county 
commission now?
    Judge Kent. They are right now doing a security audit. And 
we've had some help from the U.S. Marshals Department to come 
over and help us with that security audit, to design better 
procedures to, hopefully, increase----
    Mr. Delahunt. Is part of their work looking at the staffing 
needs?
    Judge Kent. Absolutely. The staffing needs at the 
courthouse.
    Mr. Delahunt. Okay. And have they come forward with, as we 
say, some hard cash?
    Judge Kent. They have come forward with promises to look at 
the situation and see if the cash is available.
    Mr. Delahunt. Okay. Again, you know, with all due respect 
to the Federal role here, we like to think we respect States' 
rights and, you know, this concept of devolution, because we're 
looking to the States to step up in many other categories. And 
I would think that this is one that we would be looking to the 
county commissioners.
    Judge Kent. And I think the States do have to provide the 
boots-on-the-ground security. But I think there's a number of 
things Congress can do that will help enhance judicial 
security, other than providing that minute-minute funding.
    Mr. Delahunt. Did I hear you say, was this a--how did this 
individual unload 70 rounds?
    Judge Kent. He had, they said, an AK-47. He had a Mach-90, 
two clips; a high-powered rifle in his car; over 200 rounds in 
his car, a----
    Mr. Delahunt. This was an automatic?
    Judge Kent. Semi-automatic. A bulletproof vest, and a flack 
jacket. He was prepared for war, and he brought it to the 
courthouse.
    Mr. Delahunt. Uh-huh. Uh-huh.
    Judge Kent. But luckily, we had some gun power to return 
fire.
    Mr. Delahunt. Right. You know, my friend from Texas here 
talks about the death penalty. You know, clearly, different 
States have different perspectives on that particular issue, as 
do I, you know. And as it pertains to Texas, what were the 
number of executions in the past year?
    Judge Kent. Each year, it varies. I've seen some years 
where we've had 20, 30 executions. This year has not been 
nearly as high, up to this point, because it depends on the 
facts of the particular cases and the appeals that go through. 
We carefully look at the cases.
    Mr. Delahunt. Right. In terms of the number of homicides in 
Texas, what's your homicide rate in Texas, per hundred thousand 
of population?
    Judge Kent. I wish this simple country judge could tell you 
that. I'm sorry, I don't----
    Mr. Delahunt. Judge Kent, I don't think you're a simple 
country judge. [Laughter.]
    Judge Kent. I have--I have to beg to differ.
    Mr. Delahunt. I think you're a very smart country judge. 
But you're not simple.
    Judge Kent. I would tell you that the vast majority of 
murders in Texas are not prosecuted as capital murders. Capital 
murders are truly reserved for prosecution for the very, very 
narrow----
    Mr. Delahunt. I'm not even--I guess I'm really debating, 
through you, my friend and colleague who's sitting in the Chair 
right now----
    Judge Kent. Okay.
    Mr. Delahunt.--about the deterrence effect of the death 
penalty.
    Judge Kent. Well, it deters that one person.
    Mr. Delahunt. Well, it does. But when one examines--and I 
would hope that maybe we could ask the staff of the Committee, 
both majority and minority counsel, to do a comparison between 
the homicide rate in the State of Texas, and I'll take my own 
State, the Commonwealth of Massachusetts. We're a non-capital-
punishment State.
    And I would suggest to you--and I'm guessing right now--but 
I'd suggest to you that the incidence of homicide in the 
Commonwealth of Massachusetts, which has no death penalty, and 
the State of Texas, which has, I understand, the highest rate 
of executions in the country--there'd be a considerable 
difference, in terms of the incidence of homicide per one 
hundred thousand population. And I guess that would be the 
empirical data that I would suggest that the death penalty 
isn't necessarily a deterrent.
    Judge Kent. Well, and I--and, look, I'm not here to stand 
up for or against the death penalty.
    Mr. Delahunt. Right.
    Judge Kent. I really believe that that is an issue best 
left to the State legislature, as you said, to let each State 
determine what they think their law should be in this.
    Mr. Delahunt. Well, I wish you would convey that particular 
sentiment to members of the--from Texas, my Texas colleagues 
here that sit on the Judiciary Committee. Thank you.
    Mr. McNulty. Congressman? Mr. Delahunt, I think Virginia 
has a lower, probably, homicide rate than Massachusetts or 
Texas, and does have capital punishment.
    Mr. Delahunt. Well, Mr. McNulty, then, let's take that--
I'll take that challenge.
    Mr. McNulty. Okay.
    Mr. Delahunt. I think--seriously, I think because there are 
so many mandatory sentences and--if the Chair would indulge me 
for an additional minute?
    Mr. Gohmert. I will.
    Mr. Delahunt. I think, you know, many of us feel very 
strongly in terms of a common and shared goal, which is to 
protect the judiciary and to protect witnesses and to make sure 
our judicial system is healthy and viable. But many of us, for 
a variety of different reasons--in my case, because as a State 
prosecutor for 22 years in a major metropolitan jurisdiction, 
you know, I did not see the benefit of mandatory sentencing; 
other than possibly, as the U.S. Attorney indicates, to develop 
an informant. And even then, there are other and better ways to 
do it, I would respectfully suggest.
    But simply to implicate in every piece of criminal--of 
crime legislation and criminal justice legislation that comes 
before this Committee, the death penalty and mandatory 
sentencing, it just doesn't work.
    And I know my friend, the former judge from Texas, 
disagrees with that. But maybe what we ought to do, not just on 
this particular legislation, but to have both our staffs work 
together to try to make a good-faith effort in determining the 
efficacy and effectiveness of the death penalty and mandatory 
sentencing, and start from a common position.
    Because, like I said, I think that there are--I think 
there's much in this particular proposal that I can support. 
Unfortunately, you know, I dare say there are aspects of it 
that I can't.
    Mr. Gohmert. Thank you. The time of the gentlelady from 
Texas has expired. She'd been kind enough to yield to her 
colleague. Did you have a question?
    Ms. Jackson Lee. I didn't yield. I just let him go in front 
of me.
    Mr. Gohmert. Oh----
    Ms. Jackson Lee. I deferred.
    Mr. Gohmert. Deferred. I see.
    Ms. Jackson Lee. That's more appropriate. So I'm prepared 
to go at this time for my 5 minutes.
    Mr. Gohmert. All right, you may proceed for 5 minutes.
    Ms. Jackson Lee. I thank the Chairman very much. And I 
thank the witnesses for their presentation and having the 
opportunity to look at your testimony. I was delayed at another 
meeting. And I thank you for your presence here.
    Mr. Chairman, if I might just offer--first of all, I'd like 
to ask unanimous consent for my statement to be included in the 
record.
    Mr. Gohmert. Hearing no objection, it will be done.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me say to both of the judges; and certainly, welcome 
back Paul, and we've watched your work, and it's been a busy 
time in Virginia; and certainly, to the U.S. Marshal, who we 
worked closely with in the Southern District, of course, a very 
busy district; that we appreciate your service. Not only your 
service, but the different times in which you have to operate.
    I don't think there's any Member here that would not 
enthusiastically--sadly, of course, because of what we have 
finally reached in terms of violence inside the courthouse and 
courtroom and the perimeters--to support a system or a review 
of the law, to ensure that we protect the Nation's courts, both 
State and Federal, which I think are crucial.
    The tragedy in Chicago, the tragedy in your city, Judge 
Kent, the tragedy in Atlanta, Georgia, is intolerable. And we 
absolutely abhor it. And I believe we can fix it.
    I hope the Chairman, who has authored this bill, will 
consider bills that have been written by Members on the other 
side of the aisle--one in particular that I am presently 
writing--so that this can be a bipartisan effort. And I think 
if we do it that way, we will protect the Nation's courts, both 
State and Federal.
    I happen to think that, although the tenth amendment is a 
very strong amendment, that there are some issues that we must 
collaborate with the States and work on. Because the sanctity 
of the judicial system cannot be, if you will, held in high 
esteem or protected, if it's not protected throughout our 
system; local courts--which I served on, a city court in 
Houston--State courts, and of course, Federal and to the 
Supreme Court of the United States.
    It would help me, Judge Kent, if you would just--this 
individual lost his life who was armed beyond even our 
imagination, was there any motive determined? I understand two 
individuals lost their lives, a woman and a child. Did they 
happen to be related, or did I have the wrong information on 
that?
    Judge Kent. Well, it's close, Congresswoman. And I 
appreciate your asking the question with respect to that. The 
gentleman--the immediate motive was that he was involved in a 
child support custody hearing that was supposed to take place 
in just a few minutes after the shooting. And he didn't want to 
pay his child support. And so he killed his ex-wife; he shot 
his son. This was the 21-year-old son, not the four--the 10-
year-old that the child support dealt with. He shot his son in 
the leg. The son survived.
    It was a civilian who was shooting at him to stop him from 
this murderous rampage he was going on; shot him four times. 
However, he had a bulletproof vest on, and so the bullets did 
not stop him. He turned and killed the civilian. Then the law 
enforcement came out of the courthouse, out of my courtroom and 
Judge Rodgers' courtroom, and repelled the violence.
    So he was heavily armed, and he was coming into that 
courthouse, if he hadn't killed her outside. And he would have 
killed more people in our town, had law enforcement not been 
able to respond to it.
    Ms. Jackson Lee. So obviously, we need to work 
collaboratively on protecting courts, regardless of the 
jurisdiction, is my perspective on this.
    Let me pose a question to John Clark. I noticed that you've 
only got a 6 percent increase in your budget in fiscal year 
2006. I don't know how you believe that that's going to be 
effective in the mass of work that you all do and, of course, 
in the increased sensitivity to the protecting of courts. Is 
that a sufficient amount?
    Mr. Clark. The simple answer is: No, it's not. In many 
cases, because of the increased workload, because of the 
demands that are being placed on the Marshals Service on an 
ever-increasing basis around the nation, particularly in a 
post-9/11 era, and speaking from the Eastern District of 
Virginia, as you know, we've had a tremendous revamping of our 
security around the courthouse in Alexandria, around the 
courthouse in Norfolk and Richmond, increase in prisoner 
population that has really skyrocketed----
    Ms. Jackson Lee. And if I may, because of the shortness of 
my time, you've given me a great piece to jump from. I see 
3,800 contract security officers. I guess the question is not, 
is that effective; but wouldn't it be more effective to have 
additional resources for actual U.S. Marshals and have them in 
an integrated system? I'm reminded, as I said, of the Southern 
District.
    And I'd ask the Chairman for unanimous consent for an 
additional minute.
    Mr. Gohmert. It will be granted.
    Ms. Jackson Lee. Thank you. For example, there's a rising 
influence of MS-13 gang members in the region that I come from. 
Plus, we are overloaded with drug cases, some of them very 
serious. Wouldn't it be wise to sort of look to an enhanced 
Marshals Service for some of these activities that are coming 
up?
    Mr. Clark. Yes, the contract security officers that work 
around the country protecting the interior of the courthouse do 
a tremendous job, and we're certainly glad to have them. But 
what we're faced with, that is from the workload level, often 
requires deputy marshals to handle those duties.
    For example, as I think Judge Roth had pointed out earlier, 
protective measures, for example, require a tremendous amount 
of resources to pull off. When you think of protective a detail 
going 24/7 for one individual, if they have a family and 
they're going to the grocery store, you require deputy marshals 
to essentially escort and protect them, much like the President 
of the United States would be protected.
    Ms. Jackson Lee. So you need--we need a full complement, 
fuller than what we have, of U.S. Marshals. And I looked at 
Judge Gohmert's--I'm trying to pick it up here, sir--
legislation. And I notice a lot of good stuff about retaliation 
and certainly some very good points. But I've always believed 
that prevention is--an ounce of prevention is worth a pound of 
cure. And when you look at our new philosophy on terrorism--and 
I sit on the Homeland Security Committee--it is to keep 
individuals from our shores. We certainly want to protect our 
homeland, but let's keep them from our shores.
    And it seems that we need legislation that focuses on 
enhancing the prevention that's necessary; which, Judge Kent, 
that's State--on the State side. And I hope that the 
legislature responds to your needs, because I'd prefer you not 
having to pull your gun, if you will. I know we have a 
concealed weapons law and judges are allowed to carry their 
weapons. But I think it's important to be preventative.
    Might I just say this? And I know, Mr. Clark, you're trying 
to say something. Let me see if the Chairman will be gracious. 
But let me just say this. The bill has--that's before us right 
now, has a lot of merits to it. I have to join my colleague on 
the question of mandatory sentences, for this reason. It is 
because we have a conflicted Supreme Court case that has 
questioned mandatory sentencing.
    I'd like the bill to be able to address these questions 
with the backdrop of that Supreme Court decision. And also, 
recognizing that judges, I think, have the ability to use their 
good discretion, and they know when a bad guy is before them, 
to know how to sentence them, both on the Federal and the State 
level. So that concerns me.
    The other concern that I have is a broader question, 
because I've made the point that I want you all as safe as you 
possibly can be. We've just seen a report that says that our 
jails are overloaded. That means I want, if you will, the bad 
guys and the terrorists. We're loaded up with more people in 
jail than any nation in the world, and we're not the largest 
nation in the world. I think we've got some frivolous cases 
where people are being incarcerated. We need to address that 
question.
    Mandatory sentencing adds to some of that frivolity, in 
terms of loading the courts and loading the system; where we 
need to address questions of providing security for our judges. 
I'd like to see our judges, if they call for it, have 24-hour 
coverage, State and Federal. That's money. That's resources. So 
we can pass legislation all day long, and we'll never get to 
the point.
    I think the other thing is, of course, this is not a 
hearing on whether or not we enjoy your decisions; but I think 
this is an appropriate hearing to make the statement that 
conversation and statements by Members of Congress can be 
equally threatening, except for the fact that we have a speech 
and debate protection when we don't like judges' decisions. So 
I hope that we'll be restrained from commenting on judges' 
decisions at this point.
    Let me close, Mr. Chairman--and thank you for your 
kindness--to simply say that, and to the Ranking Member, I want 
to thank him and Mr. Coble for this hearing. It may not be 
directly related, but I guess it's somewhat extended; and 
forgive me, not in any way taking--making light of the hearing 
here. I'm going to study this bill very carefully. I have a 
bill; I want to add some more dollars to the stated resources 
for the U.S. Marshals.
    And I hope that I can, by that, work with the State system, 
Judge Kent, and provide maybe some coverage, depending on 
whether it's a Federal crime, and we can do that.
    But I do think, Mr. Chairman, and to the Ranking Member, 
maybe we can have a hearing as well on whether or not law 
enforcement--which I respect greatly--should be handcuffing a 
5-year-old. And I'm not sure where that takes us, but I think 
that that's really going beyond the pale and that we need to 
do----
    Mr. Gohmert. The 1-minute extension has expired.
    Ms. Jackson Lee. I do thank you, Mr. Chairman. I look 
forward to working with you, if you'd work with me, as I draft 
legislation. And I'm going to be studying this issue, and also 
working with these courts and Mr. Clark. Thank you very much. I 
yield back.
    Mr. Gohmert. All right. Thank you. And I'd like to thank 
the witnesses for their testimony. The Subcommittee very much 
appreciates your contribution. This is a quite serious subject. 
And we do owe those who participate in the judicial process--
not just judges, but the prosecutors, the witnesses, the 
jurors--we owe them a debt of gratitude. And we also owe them 
protection. So, I appreciate your assistance.
    In order to ensure a full record and adequate consideration 
of this important issue, the record will be left open for 
additional submissions for seven days. Also, any written 
questions that Members wish to submit may be submitted within 
the same seven-day period.
    This concludes the oversight hearing on H.R. 1751, the 
``Secure Access to Justice and Court Protection Act of 2005.'' 
We thank you all for your cooperation, and this Subcommittee 
stands adjourned.
    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman. I am pleased to join you to convene this 
hearing on securing our courts and protecting our judges and others 
associated with court operations. Unfortunately, I am unable to join 
you in supporting the bill before us, due to the extraneous political 
agenda that is the primary focus of the bill.
    With several sensational incidents in recent years involving 
murders of judges, family members of judges, court personal and 
witnesses, and other victims, we have come to see the consequences of 
insufficient security for our court operations and persons associated 
with them. All are agreed that enhancement of security for our courts 
and all persons associated with them, is imperative. Yet, the 
proponents of H.R. 1751 have chosen to address those needs in a manner 
apparently calculated to prevent or undermine the prospects for broad, 
bi-partisan and general support for the effort.
    Unfortunately, H.R. 1751 is yet another effort to use an 
appropriate issue of concern to the nation as a vehicle for extraneous, 
controversial and general provisions of law that are unnecessary, 
costly and counterproductive to that concern. Yet again in this 
Congress, we are considering a bill that purports to address a serious 
concern--the concern for adequate protection and security of judges and 
court related personnel--when, in its essence, the bill is merely a 
host for more draconian criminal penalties aimed at ensuring that bit 
players and major players in a crime face the same consequences.
    Among other provisions, H.R. 175i contains 7 new death penalties, a 
speedy habeas corpus procedure to assure that people are put to death 
quicker and to increase the number by applying the provision ex post 
facto, 22 new mandatory minimum sentences, and provisions to punish 
attempts and conspiracies the same as completion of an offense. The 
habeas provision is especially troubling. Given that 119 death row 
inmates who have been exonerated from death penalties over the past 12 
years after languishing on death row for many years, the impact of this 
provision would be to ensure such persons are executed before they have 
enough time for the evidence to develop to exonerate them. As with the 
``Effective Death Penalty Act of 1996,'' the public policy rationale 
undergirding this provision is apparently that it is more important for 
us to administer executions efficiently than it is for us to administer 
them accurately.
    The public is clearly rethinking the appropriateness of the death 
penalty, in general, due to the evidence that it is ineffective in 
deterring crime, is racially discriminatory, and is more often than not 
found to be erroneously applied. In a 23-year comprehensive study of 
death penalties, 68% were found to be erroneously applied. So, it is 
not surprising that 119 people sentenced to death for murder over the 
past 12 years have been completely exonerated of those crimes. Nor is 
it surprising with such a sorry record of death penalty administrations 
that several states having abolished the death penalty, or had them 
overturned by courts, or placed moratoriams on their application while 
studies were being conducted, or just haven't applied one in many 
years. For example, Connecticut has not executed anyone in 45 years. 
Some have referenced the econometric research of economist Joanna M. 
Shepherd. More recently, she has done further analysis and elaboration 
on her research, noting that ``executions deter murders in six states, 
. . . have no effect on murders in eight states, and . . . increase 
murders in thirteen states.''
    Mandatory minimum sentences clearly detract from the importance of 
the bill. Through rigorous study and analysis, they have been shown to 
be less effective, and thus, to waste money, when compared to more 
effective and less costly approaches, to be discriminatorily applied, 
and to violate common sense. Moreover, the scheme of the mandatory 
minimum sentences in the bill appears arbitrary and is confusing. For 
example, under section 7 of the bill, any individual who threatens a 
witness, victim or informant in retaliation for his or her 
participation in a court proceeding would receive a 10 year mandatory 
minimum sentence. However, if the same individual threatened a federal 
judge (under section 2 of the bill) he or she would receive a mandatory 
minimum of 5 years.
    I won't quote the numerous studies regarding the problems with 
mandatory minimum sentences here, but Mr. Chairman, when we combine the 
impact of this bill and its mandatory provisions with the impact of 
similar provisions in the gang bill and the drug bill we recently 
considered in this committee, clearly there will be a massive prison 
impact if they are enacted into law. The indications from Sentencing 
Commission assessments of the impact of the gang bill, alone, is in 
excess of $7 billion dollars over the next 10 years. So, I hope you 
will join me in requiring a prison impact assessment from the 
Department of Justice regarding these measures.
    And just as clearly, Mr. Chairman, with the number of death 
penalties and mandatory minimum sentences we already have that would 
apply to the incidents we have seen in our courts, we are not talking 
about the kind of people who are discouraged by such measures. So, I 
look forward to the testimony of our witnesses with the hope it will be 
on what might actually enhance court security and not on these 
extraneous matters. Thank you, Chairman.

                               __________

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    While the problem of violence and threats against judges, court 
officials, and employees, witnesses and victims is not a new one, the 
problem is growing. Recent events--the killing of the Fulton County 
State judge and other court personnel in Atlanta, the murders of a 
United States District Judge Joan Lefkow's family members outside 
Chicago, Illinois, and the murders immediately outside the Tyler, Texas 
courthouse--have underscored the problem. According to the 
Administrative Office of United States Courts, there are almost 700 
threats a year made against federal judges, and in numerous cases 
federal judges have had security details assigned to them for fear of 
attack by members of violent gangs, drug organizations and disgruntled 
litigants.
    According to The Third Branch, the primary newsletter of the 
federal courts, at its March 2005 meeting, the Judicial Conference 
noted that off site security for judges is ``of the gravest concern to 
the federal judiciary'' and will be the top priority in discussions 
with the Attorney General and Director of the U.S. Marshals Service. In 
addition, the Conference approved a resolution calling for Justice 
Department and Marshals service leaders ``to review fully and 
expeditiously all aspects of judicial security at judges' homes and 
other locations away from the courthouse. Let me say Mr. Chairman that 
I realize the importance of providing adequate protection for our 
Nation's judges. However, H.R. 1751 reaches too far.
    Not only is it flooded with mandatory minimums, but it is imposes 
several new death penalties.
    The United States Marshals Service is responsible for protecting 
Federal judge's and their families, and for security at Federal 
courthouses. There have been concerns raised as to the United States 
Marshals management and handling of judicial security, the manner in 
which it conducts threat assessments, and the recent staff cuts in the 
witness protection program. The United States Marshals claim that cuts 
and reallocations have been necessary because of inadequate federal 
funding of the service.
    In addition, at the State and local level, there are significant 
court security and witness protection issues that have been identified. 
Judges in many States are inadequately protected, and there are no 
meaningful witness protection programs at the State and local level, 
where 90 percent of the criminal prosecutions occur.

                               __________
            Prepared Statement of Mary McQueen, President, 
                    National Center for State Courts

    Chairman Coble, Member Scott, and Members of the Subcommittee,
    On behalf of the Conference of Chief Justices (CCJ) and the 
Conference of State Court Administrators (COSCA), it is a privilege to 
provide testimony for consideration in the Subcommittee's hearing 
examining the security of the Nation's state and federal courts. The 
Conferences' memberships consist of the highest judicial officers and 
the state court administrators in each of the fifty states, the 
District of Columbia, the Commonwealth of Puerto Rico, and the Northern 
Mariana Islands and the Territories of American Samoa, Guam and the 
Virgin Islands. The National Center for State Courts (NCSC) serves as 
the Secretariat for the two Conferences and provides supportive 
services to state court leaders including original research, consulting 
services, publications, and national education programs.
    We believe that Congress has an opportunity to make an important 
and tangible difference in improving the safety of our courts and 
upholding the fundamentals of our democratic society.

                              INTRODUCTION

    This morning thousands of judges, prosecutors, public defenders, 
lawyers, law enforcement officers, court personnel, court reporters, 
jurors, witnesses, victims, and members of the general public entered a 
courthouse. They come for one purpose--seeking justice in a safe, 
neutral forum. What ensures that people can resolve their disputes, 
present evidence before a judge or jury and expect a judge to rule 
solely based upon the law, uninfluenced by intimidation? A forum free 
from fear, free from threats, and free from violence. People will not 
bring their disputes to courts if the likely consequence is 
intimidation or physical harm. Judges and jurors cannot pursue the 
truth if they or their families are threatened.
    A democracy cannot long endure if those entrusted with resolving 
disputes are targets of violence and become enmeshed in an environment 
of fear and intimidation, if officers responsible for security do not 
have the resources to detect and respond, and if lawyers, parties and 
the public must evaluate their own personal safety in deciding whether 
to participate in the process. Freedom from such an environment and the 
ability to carry out the judicial responsibilities in an open and 
accessible manner are fundamental components of the exercise of the 
rule of law.
    We appreciate the problems of violence in the workplace. Indeed, if 
there is any workplace in America where the potential for violence is 
great, it is the judicial workplace. People do not go to court for 
learning or education, entertainment or fun. People are often legally 
required to attend court. Jurors are summoned to court. Witnesses are 
subpoenaed to court. Defendants are compelled to go to court to face 
criminal charges or civil prosecution. Folks who have given up on 
resolving their disputes peaceably--disputes with their neighbors, 
disputes with their children, disputes with their families, disputes 
with their employers--go to court as their last resort. Emotions run 
high because these disputes invariably involve human relationships, and 
people's relationships evoke strong feelings. Also, there is the 
confrontation clause--the right to confront your accusers. Although 
most of us spend a lot of time trying to avoid problems or sweep them 
under the rug, in court you often directly confront your adversary.
    Consequently, in the judicial workplace, there is confrontation 
between people under highly charged sets of emotional circumstances 
regarding disputes that they have been unable to peacefully resolve. 
There are winners and losers in court. Not only is there confrontation 
and emotion, but at least one of the parties will often leave feeling 
disappointed or angry that they have lost--and they have lost in some 
sort of a final, binding way. Frequently, both sides leave feeling that 
they have lost because of either the process or the court's ruling. 
Despite the fact there is no workplace with greater potential for 
violence it is also true that there is no workplace in America where it 
is more critical that the workplace be free of violence.
    Access to peaceful resolution of disputes is fundamental to our 
system of government. Coupled with the principle of judicial 
independence these concepts are the envy of the world. Neither access 
to justice nor judicial independence can exist in an environment of 
intimidation, fear or violence. Under the rule of law, court 
proceedings are supposed to be open and public. How long will the 
proceedings be open to the public if members of the public, although 
invited to the courthouse, fear that they are going to become embroiled 
in some sort of a threatening, fearful, or violent situation?
    Mr. Chairman, the recent events in Atlanta and Illinois show a 
disturbing pattern with regards to how some people view the judiciary 
as an institution. These attacks and threats towards members of the 
judicial branch are rapidly reaching a crisis point for us. Let me 
recount some recent examples that we were able to get from our members:

        <bullet>  Alaska. Most of the judges in this state have 
        recently received threatening communications with repeated 
        references to the Chicago murders. Last year, a serious 
        communication to one judge required the intervention of the FBI 
        last year. Also during this past year, large numbers of weapons 
        have been confiscated as a result of magnetometer screenings.

        <bullet>  Arizona. In the past year, there has been a suicide 
        outside a divorce court, a firebomb of a Justice of the Peace 
        Court, death threats towards judges, a visit by a disturbed 
        litigant to a judge's home, explicit communications with 
        pictures and diagrams to judges on pending cases, and threats 
        by constitutionalists to ``arrest'' and execute a judge.

        <bullet>  California. Various bomb threats have been received 
        this past year, including an incident in which law enforcement 
        was able to arrest the perpetrator before he was able to carry 
        out the actual bombing, an incident in which a firebomb was 
        discovered in a courthouse before it was able to go off, and an 
        incident in which a litigant came into a clerk's office with a 
        small home-made bomb. Explicit threats have been made against 
        judges to carry out violence against them. Graffiti has been 
        painted detailing threats against the court system. A court 
        received correspondence that contained a vial of blood that 
        tested positive for HIV and Hepatitis C. A wallet found in a 
        courtroom with a description of a judge's car and license plate 
        number. An individual with a pending court case was recently 
        arrested videotaping the judges parking lot.

        <bullet>  Mississippi. Death threats have been made against 
        several trial courts judges. Threats of destruction of property 
        (buildings) and physical attacks on Justices of the Supreme 
        Court have been made.

        <bullet>  New Hampshire. There was a recent incident where an 
        individual entered a courthouse and attempted to assault a 
        Court Security Officer during the screening process. A recent 
        threat to ``shoot up'' one of the courthouses was also made.

        <bullet>  New York. The New York State court system receives 
        approximately 140 death threats against judges a year.

    Even though we do not have quantitative data to back this up, it is 
the impression of the state court leadership that the number and 
severity of these threats have been rising in recent years. 
Furthermore, given that the state courts try approximately 96 million 
cases per year, the opportunities for incidents and the magnitude of 
the problem cannot be overstated. Also, let me emphasize that while 
judges and court personnel are seriously at risk during any incident, 
the risk to the public is also significant.

                         THREATS AGAINST JUDGES
 
   Since the Fulton County incident and the murders of U.S. District 
Judge Lefkow's husband and mother, we have been inundated with requests 
for information about threats that state court judges receive on the 
job. The simple fact of the matter is that, because of the cost of 
compiling such a large amount of data, we do not know the full extent 
of the problem.
    In a survey by the family law section of the ABA, 60 percent of 
respondents indicated that an opposing party in a case had threatened 
them. From the federal Marshall's Service, we know that they record an 
average of 700 inappropriate communications and threats a year against 
federal judicial officials. This is a marked increase from the 1980s 
when the average was closer to 240 per year. If you compare the number 
of federal judges to the approximately 32,000 state court judges, there 
is the possibility that we may find a large number of judges that face 
or have faced some sort of physical threat.
    Naturally we must always remember that the potential for violent 
attacks on judges is not limited to the courtroom. An aggressor who 
targets a specific judge may attack the weakest security link in that 
judge's world--most likely the home. While more difficult, this area of 
protection cannot be overlooked.
    In order to better position courts and judges to deal with these 
threats we are proposing the following:

        <bullet>  To Establish a Repository for a New Threat Assessment 
        Database.--Each state would establish a web-based site where 
        threats could be reported and local action taken. Federal 
        dollars could support each state in establishing these web-
        based sites. This coordinated effort would result in: 1) 
        establishing and defining a core set of data elements used by 
        each state and 2) obtaining data from states for analysis of 
        trends and patterns. This information could then be used to 
        assist states in preventing acts of domestic terrorism and 
        crime and in enhancing their security procedures. By having the 
        information from this threat database, we can target our 
        resources where they will be most needed. Under the current 
        system, most courts are taking an all or nothing approach with 
        virtually no information to guide them in overall security 
        planning.

        <bullet>  To Establish a Tax Credit for Personal Security 
        Systems for Public Officials that Receive Threats as a Result 
        of Performing Their Public Duties--Public officials, in order 
        to protect themselves and their families, have had to purchase 
        personal security systems as a result of threats and assaults. 
        A tax credit is an appropriate way in which to offset these 
        expenses.

    Even though the second item may not be within the purview of this 
committee, we hope to count on your support as we forward it to the 
tax-writing committees.

                           FUNDING CHALLENGES

    Perhaps the greatest challenge facing state courts wishing to 
implement enhanced security measures is the issue of resources. The 
majority of limited jurisdiction courts depend on local law enforcement 
for the personnel to operate the equipment, provide adequate response 
or run security operations in a courthouse. As you know, most local 
governments struggle to meet day-to-day operations of running their 
governments and have little options to improve or implement new 
security measures in courthouses. Because there is no adequate funding 
source, many courts report that they have no formal security plan.
    CCJ/COSCA and the National Center for State Courts have been 
disseminating promising practices in the courthouse security area. Our 
efforts in this area have been well received. For example, we have 
circulated the ``Ten Essential Elements for Courtroom Safety and 
Security.'' The National Center also has compiled a wealth of 
information for state courts looking to upgrade their court security. 
Materials range from sample local court security plans to specific 
recommendations in courthouse architectural design, computer disaster 
recovery, and equipment.
    I must caution you that there is only so much that we can get out 
of streamlining and making better use of present resources. Sooner or 
later courts will need to find a way to pay for enhanced security 
measures. We hope that you will favorably consider our recommendations 
to allow state courts greater access to federal funds for much needed 
security improvements.

                THE NEW DIMENSION--COURTHOUSE TERRORISM

    On September 11, terrorist attacks threw New York City's court 
system in disarray because many court buildings and other criminal 
justice offices were located near the site of the World Trade Center. 
Three court security officers perished when they tried to assist in the 
rescue efforts. The Court of Claims Courthouse, located at Five World 
Trade Center was destroyed. Other courthouses were deep within the so-
called `frozen zone,' an area that city officials ordered off-limits to 
all but essential personnel.
    The New York state court leadership, however, moved quickly to 
ensure that the disruption did not last more than one day. Under the 
leadership of New York State Chief Judge Judith Kaye, the focus of the 
hours following the attacks was to do everything possible to open all 
the courts.
    The threat of terrorism has created a new dimension in courthouse 
security. The courthouse is a visible, tangible symbol of government. 
The September 11, 2001 attacks showed painfully the targets governments 
and other prominent buildings present. Thus courts, being a core 
function of American government, now suffer increased exposure to 
attacks from those external to the court process. They must be provided 
the same protection that is being provided to other government 
institutions in order to keep them open and accessible. The state 
courts are dealing with the threats posed by terrorism. We, however, 
need more assistance from the federal government as the large focus 
shifts to protecting the homeland. This is how you can help us.
    As you know, there will be approximately $2.5 billion in federal 
funding for homeland security awarded in FY2005. As you may not know, 
very little of this money will go to state courts for dealing with the 
various terrorism-related threats. In a recent survey of COSCA members, 
76% of the respondents reported that the court system had not received 
any Homeland Security funds. We need to be a part of this funding 
because terrorists often target the positive symbols of the American 
way of life like courts and the law. To improve on this, here are some 
concepts that we forward for your consideration:

        <bullet>  To Create a New Federal Grant Program Specifically 
        Targeted at Assessing and Enhancing State Court Security to 
        Combat International and Domestic Terrorism--This program would 
        address the 10 Essential Elements for Courtroom Safety and 
        Security as developed by CCJ/COSCA. The program would be 
        modeled after the Court Improvement Program (CIP), the 
        successful federal/state court program that has assisted us in 
        handling child abuse and neglect cases.

        <bullet>  To Ensure that State Courts Are Eligible to Apply 
        Directly for Federal Funding--State and local courts have not 
        been able to apply directly for some Department of Justice 
        (DOJ) administered programs because of the definition of ``unit 
        of local government'' that has been included in the enabling 
        legislation for the various programs. The result of this 
        language is that state and local courts are not able to apply 
        directly for these funds, but must ask an executive agency to 
        submit an application on their behalf. As part of the DOJ 
        reauthorization and as new grant programs are created, we ask 
        that the definition of eligible entities is broadened so that 
        state and local courts can apply directly for federal grant 
        funds. As an example, when the Violence Against Women Act 
        (VAWA) was reauthorized in 2001, the reauthorization 
        legislation contained specific language authorizing, ``State 
        and local courts (including juvenile courts) . . .'' to apply 
        directly for VAWA funds.

        <bullet>  To Ensure that State Courts Are Included in the 
        Planning for Disbursement of Federal Funding Administered by 
        State Executive Agencies--Statutory language for grant programs 
        that impact the justice system should include specific language 
        requiring consultation and consideration of state court needs. 
        The language that we have suggested is as follows:

               ``An assurance that, in the development of the grant 
        application, the States and units of local governments took 
        into consideration the needs of the state judicial branch in 
        strengthening the administration of justice systems and 
        specifically sought the advice of the chief of the highest 
        court of the State and, where appropriate, the chief judge of 
        the local court, with respect to the application.''

                   NATIONAL SUMMIT ON COURT SECURITY

    Shortly after the Atlanta and Chicago tragedies, with the Office of 
Justice Programs of the Department of Justice, the Conference of Chief 
Justices, the Conference of State Court Administrators, the American 
Judges Association, the National Association for Court Management, and 
the National Sheriffs Association as sponsors, we held a National 
Summit on Court Security on April 21, 2005. The Summit brought together 
all members of the court community to review current safety and 
security practices and needs in the courts. The discussions that 
occurred in the summit refined and reinforced the action items we are 
requesting in this testimony. We commend those who participated in the 
Summit. We are particularly grateful to Attorney General Gonzales and 
the Department of Justice's Office of Justice Programs for their 
leadership in embracing this priority and which provided the resources 
to hold the Summit.

                               CONCLUSION

    The state courts of this country welcome the Judiciary Committee's 
interest in courthouse security. We look forward to working with the 
Committee to develop legislation that addresses courthouse security 
needs and takes into account the varied needs of the state courts of 
this country. We commend the Subcommittee for holding this hearing and 
recognizing the national interest in ensuring that our judiciary and 
courts must operate in a safe and secure environment.
 Letter from the Judicial Conference of the United States, dated April 
 1, 2005, submitted by the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Response to post-hearing questions from the Honorable Paul J. McNulty, 
          United States Attorney, Eastern District of Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
